<html>
<title> - PAKISTAN'S FUTURE: BUILDING DEMOCRACY OR FUELING EXTREMISM?</title>
<body><pre>[Senate Hearing 110-554]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-554
 
                 PAKISTAN'S FUTURE: BUILDING DEMOCRACY 
                         OR FUELING EXTREMISM? 

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               __________

                             JULY 25, 2007

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
              http://www.gpoaccess.gov/congress/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

45-036 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

























                COMMITTEE ON FOREIGN RELATIONS          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

                             (ii)          

  




















                            C O N T E N T S

                              ----------                              
                                                                   Page

Ahmed, Dr. Samina, South Asia Project Director, International 
  Crisis Group, Islamabad, Pakistan..............................    54
    Prepared statement...........................................    55


Burns, Hon. R. Nicholas, Under Secretary for Political Affairs, 
  Department of State, Washington, DC............................     6

    Prepared statement...........................................    12


Cohen, Dr. Stephen P., Senior Fellow, Foreign Policy Studies, The 
  Brookings Institution, Washington, DC..........................    50

    Prepared statement...........................................    52


Kerry, Hon. John F., U.S. Senator From Massachusetts.............     1


Lugar, Hon. Richard G., U.S. Senator From Indiana................     5


Schaffer, Hon. Teresita C., Director, South Asia Program, Center 
  for Strategic and International Studies, Washington, DC........    46

    Prepared statement...........................................    48


              Additional Material Submitted for the Record

Responses to Questions for the Record Submitted to Under 
  Secretary Nicholas Burns by Chairman Biden.....................    59

                                 (iii)

  


                 PAKISTAN'S FUTURE: BUILDING DEMOCRACY
                         OR FUELING EXTREMISM?

                              ----------                              


                        WEDNESDAY, JULY 25, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:33 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. 
Kerry, presiding.
    Present: Senators Kerry, Feingold, Menendez, Cardin, Casey, 
Webb, Lugar, Hagel, and Isakson.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Good afternoon. The hearing will come to 
order.
    Thank you, Secretary Burns, for being here with us today. 
We really appreciate it. And we look forward to this, what I 
consider to be an important hearing.
    Ambassador Burns has had a long and distinguished career as 
a Foreign Service Officer. He served as our Permanent 
Representative to NATO, Ambassador to Greece, and State 
Department spokesman, as well as on the National Security 
Council staff. He currently serves as the Under Secretary of 
State for Political Affairs, which makes him the third-ranking 
official at the State Department, with oversight responsibility 
for U.S. policy throughout the world.
    I might add, he comes with special credentials, because 
he's from Massachusetts. He's a graduate of Boston College, and 
he's a lifelong Red Sox fan. And that means he knows how to 
persevere through great adversity, ladies and gentlemen. 
[Laughter.]
    Secretary Burns, this is clearly a pivotal moment in 
Pakistan, and I wanted to have this hearing today because, 
while we are spending hundreds of billions of dollars in Iraq, 
and, while there is such significant focus on Iran--and we are 
appropriately focused on Iran, but to the exclusion of other 
concerns, in some people's judgment--places of enormous 
importance have, in our judgment, not received some of the 
focus that, perhaps, they should.
    Our intelligence agencies have just issued a dire warning 
about the threat posed by al-Qaeda in the tribal areas of 
Pakistan. The Taliban is using Pakistani territory as a base 
for attacks in Afghanistan. There has been a major increase in 
extremist violence, following the attack on the Red Mosque, and 
the political turmoil surrounding the ouster and reinstatement 
of Chief Justice Chaudhry has put President Musharraf in a 
precarious position, with new elections scheduled for the fall. 
So, obviously, all of these issues, we look forward to hearing 
your views on them, and the administration's strategy for 
Pakistan, going forward.
    But I want to say just a few words about this. People I 
have talked with and met with privately in the past months 
indicate to me that events in Afghanistan are going a lot less 
well than we would like. And that has not necessarily received 
the public attention that it ought to. And it is related--
directly related, intimately related--what is happening in 
Pakistan, and, most notably, to what is not happening in 
Pakistan.
    This relationship is one of the most important, I want to 
underscore, that we have, strategically and substantively, 
anywhere in the world right now, and it is also one of the most 
complex. We need to make it clear to Pakistan--and I want to 
emphasize, here today, when I say ``Pakistan,'' I don't just 
mean the Musharraf government. Pakistan, to America, cannot 
just mean Musharraf, it must mean Pakistanis and the country, 
and the country's aspirations. And we need to make it clear to 
Pakistan, to both the government and the people, that we are 
committed to sustaining and building this relationship over the 
long term in a manner that serves both of our countries' 
interests.
    We appreciate the very significant contributions and 
sacrifices that Pakistanis have made in the fight against al 
Qaeda and Islamic extremists. At the same time, it is clear 
that our current strategy in Pakistan has not been working as 
well as it should, or must, particularly when it comes to our 
core objectives of fighting terrorism and promoting democracy. 
We understand that it's a delicate balance between moving 
Pakistan in a more positive direction and not causing a major 
rupture in the relationship--not encouraging the worst 
outcomes--that we hope to avoid.
    So, I hope we'll come away from today's hearing with a 
better understanding of the administration's views, and 
particularly its plans, and how we can all work to build an 
effective long-term strategy.
    Clearly, the most pressing and direct national security 
concern that we face in Pakistan is the resurgence of al-Qaeda 
in the tribal regions bordering Afghanistan. We were all deeply 
troubled by the recent National Intelligence Estimate, entitled 
``The Terrorist Threat to the U.S. Homeland,'' which made clear 
that, while we've been distracted and bogged down in Iraq, al-
Qaeda has grown stronger than at any time since 9/11. I would 
remind the President, who took pains yesterday to point out in 
South Carolina the importance of dealing with al-Qaeda, that 
this is our own National Intelligence Estimate; these are our 
own intelligence personnel, who are warning us of al-Qaeda's 
strength, not in Iraq, but in Afghanistan and Pakistan.
    Al-Qaeda has grown stronger. The NIE brings home to all of 
us, in the starkest possible terms, that al-Qaeda has--and I 
quote the NIE--``regenerated key elements of its homeland 
attack capability, including a safe haven in the Pakistan 
federally administered tribal areas, operational lieutenants, 
and its top leadership.'' Osama bin Laden and top al-Qaeda 
leaders are likely still hiding out somewhere in the region, 
and none of us here need to be reminded of the nightmare 
scenario of the potential of Pakistan's nuclear arsenal falling 
into the wrong hands.
    We also know that the Taliban is using the tribal areas as 
a base for launching attacks against coalition forces in 
Afghanistan. And our generals tell us that Taliban leaders have 
maintained a headquarters in Quetta. It is clear that we can't 
succeed in the vital mission of stabilizing Afghanistan if the 
enemies of the coalition and the Karzai government enjoy a safe 
haven right across the border.
    General Eikenberry, the former commanding general in 
Afghanistan, summed it up simply: Al-Qaeda and Taliban 
leadership presence inside Pakistan must be satisfactorily 
addressed if we are to prevail in Afghanistan and if we are to 
defeat the global threat posed by international terrorism. I 
don't think anybody could put it more directly or succinctly or 
accurately.
    I might add that one of the reasons, I am told by some 
experts, that we've lost a little foothold with respect to the 
Taliban is because of the lack of success in Iraq, coupled with 
the lack of success in Afghanistan, which is coupled to the 
lack of delivery on the civil side, which has disillusioned 
Pashtun from believing, somehow, that the outcome will be what 
they thought it would be at the outset. And when the outcome is 
in doubt, people play their own games and align themselves 
differently.
    So, the lack of focus has cost us, very significantly, 
folks, and that's part of what we want to deal with here today.
    The central front in the fight against terrorism is right 
where it always has been, along the Afghanistan-Pakistan 
border. We simply cannot allow history to repeat itself, and 
many of us here are concerned that there may not be the 
implementation of an effective strategy, if there is a defined, 
effective strategy, in order to counter this threat.
    Our intelligence community has linked the resurgence of al-
Qaeda and the Taliban in this area directly to an agreement 
that President Musharraf struck with tribal leaders in 
Waziristan. I was in Pakistan at that period of time, and I 
remember commenting then to President Musharraf and to the 
press, publicly, that the treaty raised serious questions about 
whether or not it was an appeasement and abdication of our 
responsibilities. The administration has now finally 
acknowledged that the treaty has not worked for Pakistan, and 
it has not worked for the United States.
    After the attack on the Red Mosque, the Taliban declared 
the deal was dead, and we've even seen increased presence of 
Pakistani troops in the tribal areas since then. Yet, still we 
hear that President Musharraf is actually trying to revive that 
agreement. And I would say, today, as firmly as I can, that 
going back to a failed strategy is not the answer. The 
administration has also made it clear that they haven't ruled 
out U.S. military operations in the area. We must be prepared 
to use force, if necessary, to protect our interests, but 
sending United States ground troops into Pakistani territory 
obviously raises many difficult issues for us, as well as it 
does for Pakistan.
    We also have a 5-year, $750 million plan for winning over 
the local population in the area. But real concerns have been 
raised about whether that money can actually be put to good 
use. We'll be interested to hear your views, Mr. Secretary, 
about the strategy for dealing with this threat, both in the 
short term and the long term.
    We also need to consider the role of U.S. aid in advancing 
our interests. Since 9/11, we've given Pakistan roughly $10 
billion in aid, and, likely, billions more in covert 
assistance. Roughly 75 percent of this aid has gone to 
reimbursement of counterterrorism expenses and other security 
assistance. We clearly have a right to expect more in return 
for the investment of $10 billion, a massive amount of aid in 
the fight against terrorism. At the same time, less than 10 
percent of our aid goes to development and humanitarian 
assistance. And I think we have to give strong consideration to 
whether targeting more of that assistance to projects that help 
the Pakistani people understand the stakes of this fight and 
the benefits of this fight may, in fact, make a difference, or 
not.
    One area we should pay particular attention to is funding 
for education, which the bipartisan 9/11 Commission emphasized 
was key to promoting moderation. This is especially important, 
given that more than half of Pakistan's population is under 15 
years of age. Again, when I was in Pakistan, I had the 
privilege of visiting the northern territories, near the 
Himalayas, where the earthquake had taken place, and we did a 
remarkable job in providing disaster relief. I think all 
countries who took part in that should be very proud of their 
efforts. But one thing that struck me when I was in the high 
country, I met hundreds of kids who were in school, all of them 
for the very first time in their lives. That was the first time 
that they had come out of the mountains and actually been 
organized in a way that could educate them.
    So, these are enormous tasks and challenges, and I think 
they deserve to be on the table as we consider the longer term 
strategy.
    Finally, we've reached a critical period for the future of 
democracy in Pakistan. It's clear that reinforcing our strong 
commitment to democracy, human rights, and respect for rule of 
law is in the best interests of all Pakistanis and of the 
United States. President Musharraf's term is set to expire this 
fall, and, under Pakistani law, the national and provincial 
assemblies must conduct new Presidential elections by October, 
with new legislative elections to follow. The Pakistani Supreme 
Court may have to rule on whether President Musharraf can stay 
on in his role as chief of the military and whether he can 
legally be reelected by a lame-duck Parliament. These are big 
issues for any country.
    Now that Chief Justice Chaudhry has been reinstated to the 
court, there appears to be a strong possibility that it will 
rule against President Musharraf on these questions. So, we 
need to be prepared for that eventuality and the possibility 
that President Musharraf might leave office, or be forced out 
of office.
    In fact, although he may be hedging on this now, President 
Musharraf has said in the past, and he said it to me personally 
in my visit with him, that he will live up to his promise, and 
that he will relinquish his military role. And Khurshid Kasuri, 
the Foreign Minister of Pakistan, said, during this recent 
visit, that President Musharraf was still planning to do so. We 
must make it clear that we expect President Musharraf to live 
up to that promise, that it's an important one, in terms of our 
relationship with Pakistan, and with him, personally.
    It's also critically important that the upcoming elections 
are free and fair, and we should work to ensure that they are 
conducted transparently and legitimately. This sends an 
important message of support to the people of Pakistan, who are 
increasingly insistent on restoring true democratic rule and 
will help to undermine extremists, in the long run. That is 
part of a strategy against terror.
    We must also continue to raise our strong concerns over the 
unexplained disappearance of some 400 people, the arrest of 
hundreds of political activists from opposition parties, and 
the recent crackdown on the media.
    Finally, we must also consider Pakistan's relationship with 
India, especially when it comes to Kashmir, the security of 
Pakistan's nuclear arsenal, and the current status of our 
efforts to ensure that the proliferation disaster we 
experienced with A.Q. Khan, that that network can never be 
repeated.
    With these comments, I turn to Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    As you've mentioned, the United States relationship with 
Pakistan is one of the most critical in the world today, and 
also one of the most complex. I'm especially pleased that we 
will be able to gain the insights of Nick Burns, who has played 
such an important role in our diplomacy in the region, and to 
hear from a distinguished panel of experts.
    While Pakistan was a long-time and important friend of the 
United States, the September 2001 terrorist attack led us to 
intensify our engagement to ensure a strong and productive 
relationship. Voices in Congress now have been calling for a 
review of this policy. The common refrain is that American aid 
should be conditioned on improved performance in the war on 
terror and progress toward democracy and away from military 
rule.
    Recent events in Pakistan have once again thrown our 
relationship into high relief. President Musharraf's decision, 
last spring, to suspend the Chief Justice of the Supreme Court 
aroused considerable controversy, especially among those 
already unhappy that he has declined to relinquish his role as 
military chief. The court decision, last week, which reinstated 
the Chief Justice, while auguring well for judicial 
independence, nonetheless puts President Musharraf in a 
difficult political position. His decision, earlier in June, to 
order a commando assault against Islamic militants illegally 
occupying an Islamabad mosque provoked a violent reaction among 
some Islamists.
    Setbacks in the security situation, especially in the areas 
along the Afghan border, have been detrimental to both United 
States and Pakistani interests. The collapse of the cease-fire 
in the federally administered tribal areas could presage more 
fighting for the Pakistani military, which lost hundreds of 
soldiers in the unforgiving terrain prior to this truce. A new 
United States intelligence report says al-Qaeda has 
reconstituted itself in the tribal areas, stronger than at any 
time in a year. In addition, Taliban fighters, bent on 
destabilizing Afghanistan, move between the tribal areas and 
Afghan villages. There has been considerable discussion about 
the appropriate United States response to this al-Qaeda and 
Taliban activity inside Pakistan, and I hope Under Secretary 
Burns will be able to clarify the administration's position.
    Moreover, Pakistan's army is designed, trained, and 
equipped to fight India and Kashmir, and to deter India with 
nuclear weapons. This requires a dramatically different 
capability from that needed in the tribal areas, which is why 
the United States is rushing to supply the military with more 
money and weapons. The United States is said to be planning to 
provide $750 million over the next 5 years in these troubled 
areas to help win over the general populace and persuade them 
to end their support for al-Qaeda and Taliban militants. But 
there are obvious dangers in distributing so much money in a 
hostile region, where oversight is virtually impossible, even 
by the Pakistani Central Government, much less by the United 
States. After all, the tribal chiefs have, for years, 
accommodated the very groups that America seeks to drive out. 
This committee and the Congress would like to know what 
safeguards and monitoring mechanisms the administration would 
employ to ensure that such funds are effective. I believe it's 
fair to ask whether it was wise to try to use development aid 
as a counterinsurgency tool in this remote hinterland; and, if 
it is, can we do it in a way that maximizes our chances of 
success?
    Mr. Secretary, I know, from your experience with this 
committee, that you have given these important questions great 
thought already. Many in Congress who have supported the 
administration's policies in South Asia for nearly 5 years are 
now asking whether it is time for a course correction, and we 
look forward to hearing your analysis and your recommendations 
today.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you, Senator Lugar.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, I have no statement, and look 
forward to the Secretary's comments.
    Thank you.
    Senator Kerry. Thank you very much.
    Secretary Burns, thanks, again, for being here, and we look 
forward to your testimony.

   STATEMENT OF HON. R. NICHOLAS BURNS, UNDER SECRETARY FOR 
     POLITICAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Burns. Mr. Chairman, thank you very much. Senator 
Lugar, members of the committee, it's a pleasure to be here.
    And I think you're right, Mr. Chairman, to have called this 
hearing. I agree with you--I listened carefully to your opening 
statements--that there is no more important challenge for our 
country than the battle in Afghanistan and Pakistan and on the 
border area, the battle that we have, and they have, with al-
Qaeda and with the Taliban. And I hope that, by the end of this 
hearing, you will become convinced that we are focused on this. 
We have 27,000 American troops in Afghanistan. We have the 
fifth-largest aid program in the world in Pakistan. We've 
brought all of the efforts and will of our government to bear, 
diplomacy and militarily, on this crisis area for many years, 
since 2001.
    I'm here today to underscore that we need to have a 
successful American engagement with Pakistan, because that 
speaks to our vital national security interests.
    Pakistan, right now, is one of our closest partners, 
globally. It is, without any question, our indispensable--our 
most indispensable partner in the fight against al-Qaeda and 
the other Islamic terrorist groups in South Asia. It is also, 
without any question, the most important country affecting our 
efforts in Afghanistan, given the degree of involvement of the 
terrorist groups crossing back and forth over that eastern 
border between Pakistan and Afghanistan. It's also, of course, 
one of the leading Muslim countries in the world, and it's--it 
is situated in an area that is now of vital importance to the 
United States: South Asia. I don't think we would have said 
that 20 years ago, or 30 years ago, but, of course, we say it 
now.
    At the same time that we debate American policy, as you 
note very correctly, Pakistan is facing tremendous internal 
challenges. And these challenges are its own to manage, but we 
have a clear interest in the outcome of the struggle within 
Pakistan itself; and its future stability and prosperity, and 
whether or not it can become a fully fledged democracy, will be 
important indicators of whether or not the American policy in 
the region can succeed. So, we hope that Pakistan will become a 
more democratic country. We hope that the government will lead 
the country, and, as you say, all Pakistanis, to that place. 
And we're committed to remaining a close partner to the 
Government of Pakistan, but also the people of Pakistan, as we 
proceed.
    We have a rather unusual history with that country. And I 
know you all are well aware of that history over the last half-
century. It's been tumultuous. We had very close cooperation 
after Pakistan's independence in the 1950s, through CENTO and 
SEATO. But, then we gave way to a period of inaction, in the 
1960s. There was President Nixon's famous tilt toward Pakistan, 
and then, of course, some of his successors tilted away. We had 
a very close period of partnership against the Soviet invasion 
of Afghanistan in the 1980s, but then we parted ways over 
Pakistan's unwelcome development of its nuclear weapons 
program.
    Post-9/11, Musharraf threw in his lot with us, and we are, 
together with him, and, we believe, with the Pakistani people, 
the great majority of them, in wanting their country to be 
peaceful and stable, and wanting their country to resist al-
Qaeda and the Taliban. And, as I said before, I think the 
single greatest change to our strategic interests, perhaps even 
globally, has been the newfound realization that what happens 
in South Asia--in Afghanistan, with Pakistan, with our new 
strategic relationship with India--is now of singular 
importance to us and of vital importance to our most important 
national interests.
    And so, we see Pakistan through this historical prism, but 
we also see it through the strategic prism of what's important 
to the United States as we try to fight these radical terrorist 
groups and stabilize Afghanistan, and then take advantage of 
the more positive opportunities with India and the other 
countries.
    I wanted to say this, and just reflect a bit on the 
history, because I think the Pakistani people--average 
Pakistanis--many of them say, ``Well, the United States has 
been very inconsistent in its engagement with our country over 
many decades. Are you going to be consistent?'' And I think the 
answer is that there's nothing more important, at this time, 
than that we Americans be consistently engaged and committed to 
try to do the right thing with Pakistan and help that country 
to become more stable. And so, I hope that Pakistanis will see 
the United States as a reliable friend and a reliable partner. 
I hope they'll understand, as well, and the government will 
understand, that, as a good friend, we need to speak frankly 
from time to time with them and about them. We're going to 
disagree with Pakistan, as we have in the last several weeks, 
sometimes, about how to prosecute the war against al-Qaeda and 
the Taliban. We will disagree, perhaps, about the right way to 
build a democratic state. But there's no question that we 
Americans have a stake there, and it needs to be a long-term 
stake, and we need to sustain this over the period of the next 
decade, or more.
    Now, obviously, as you mentioned, Mr. Chairman--and Senator 
Lugar did, as well--by far, our most important interest is to 
work with the Pakistanis to get right this question of the best 
strategy and the best set of tactics to fight global terrorism 
and extremism. President Musharraf, I think, as you know, has 
been the victim of several terrorist attacks on his own life. 
He has lost 600,000--600 soldiers--excuse me--since 9/11 on the 
border with Afghanistan in the northwest frontier province, 
fighting the terrorist groups. We don't question the will of 
President Musharraf. But there's a legitimate question about 
what kind of policies should be pursued by the Pakistani 
government and our Government in order to be successful.
    They have killed or captured more al-Qaeda than anybody 
else--Pakistan has--over the last 6 years. They have arrested 
hundreds of terrorist suspects. They have turned over to the 
United States senior al-Qaeda figures, such as Khalid Sheikh 
Mohammed and Ramzi bin al-Shibh, and Abu Zubaida. They've 
stationed, now, 100,000 troops on the Pakistan-Afghan border, 
and that was a very lightly defended border, as you all know, 
unfortunately, before 9/11. And, as I said, a number of those 
troops, 600, have lost their lives in battles against the 
terrorists groups.
    So, I think, as Americans, we should give the Pakistani 
Government and people their due. They've been committed. They 
have made a great effort to try to fight the terrorist groups, 
but not always with the kind of success that we would expect, 
or desire, to see.
    Now, this month, after their efforts to find a peaceful 
resolution through this Waziristan agreement clearly failed, 
the Pakistani Government has moved in a different direction. 
They've moved to confront the terrorist groups. They did that, 
certainly, in the Red Mosque incident in Islamabad, but they've 
also done it on the border.
    We have to have a perspective on this fight. We know that 
it's going to be long and extremely challenging. We know the 
tribal areas of the mountainous border regions with Afghanistan 
have never been within the effective control of any central 
government. We know that the regions of north and south 
Waziristan have become safe havens for terrorism and extremist 
activity. And we know--and, in part, Mr. Chairman, you quoted 
the unclassified portion of the National Intelligence 
Estimate--that al-Qaeda has found a refuge inside Pakistan, as 
has the Taliban. And so, we hope that the Pakistani Government 
can now strengthen and elevate its efforts to fight these 
groups.
    In the tribal area, just in the last several weeks, the 
dominant story has been the increase in fighting between the 
insurgent groups and the Pakistani military. And the Pakistani 
military has recently brought in a group number of additional 
troops, just over the last several weeks, to deal with that 
threat, and they have just recently captured some major Taliban 
figures, such as Mullah Obaidullah.
    Now, it's also expanded its political efforts to try to 
work to boost the capacity of the local tribes to resist and 
expel extremists. They've had some successes. They've been 
limited. There has been a success in leading to the expulsion 
of al-Qaeda-affiliated Uzbek terrorists in and around south 
Waziristan. But, from--these initiatives apart, I think we need 
to see a more sustained and effective effort by the Pakistani 
Government to defeat the terrorist forces on its soil.
    Our assistance to Pakistan is twofold. We have a great deal 
of military assistance that has been going into the country 
since 9/11, and that will continue, with the support of the 
Congress and the agreement of the Congress, in the next several 
years. But we are also paying attention, Mr. Chairman, to what 
you suggested, and that is the life of the Pakistanis 
themselves, particularly the poor Pakistanis. We have a large 
program to try to build schools, to try to help change 
curriculum, and try to give kids an opportunity, not just to go 
to the madrassahs, but to go to other schools that will teach 
tolerance and reason, and teach peace. And we also have a 
large-scale program underway--you mentioned it--to help 
Pakistanis, particularly in the Kashmir region, to overcome the 
vestiges of the earthquake. So, there's a lot that's happening 
on the economic and humanitarian and reconstruction side of the 
country, building roads in the tribal areas, that is very 
important for the future. But there's no question that we also 
have to be concerned about helping the Pakistani military to be 
equipped appropriately and to be trained appropriately to fight 
a different kind of war than they had been anticipating over 
several decades. And Senator Lugar made that point. Their 
battle in the future is not with India. They should have a 
peaceful relationship with India, through the composite dialog 
and through the improvement that we've seen between the Indian 
and Pakistani governments over the last several years. Their 
battle has to be with al-Qaeda and the Taliban and the other 
terrorist groups.
    So, we would like Pakistan to do more here in this effort 
against the terrorist groups, and we'd like them to try to 
think through--and I know they are--the appropriate strategy.
    Now, you referred to this North Waziristan agreement. It 
was designed to empower local tribes to fight al-Qaeda, and to 
do so in a way that the Pakistani military wouldn't have to 
intervene and inadvertently kill Pakistani civilians. But, 
apart from that successful expulsion of Uzbek terrorists, that 
agreement did not work. And, as you said, Mr. Chairman--we have 
said so publicly in the last couple of weeks--it didn't work 
well for the Pakistanis, and it certainly didn't work well for 
American interests there. So, we've now seen this resurgence of 
the military going in, and we applaud that and encourage them 
to be robust in fighting the terrorist group.
    But, beyond that, I think that--I know that the Pakistani 
Government recognizes that it cannot defeat terrorism in the 
northwest frontier province by military means alone. There does 
have to be a political dialog in the tribal areas with the 
people who are influential in those areas. There must be an 
effort to help rebuild the tribal areas, to provide it the kind 
of infrastructure that's lacking access to education. And 
that's behind the administration's request for $750 million 
over 5 years to do that, to underwrite social and economic, 
humanitarian and infrastructure development in tribal areas. 
And so, it has to be a combination of a military strategy, but 
also an economic and political strategy, to win the battle for 
hearts and minds. Just as we Americans can't win the battle 
against terrorists by military means alone anywhere in the 
world, the Pakistanis cannot do that in their own country 
either. That's an important point that they tell us, that the 
Pakistani Government and people outside the government tell us. 
And I think we are--we would all be mindful to build our 
strategy based on that--based on that principle.
    But there is more that that Pakistani Government itself can 
do to fight terrorism. We're particularly concerned about 
terrorist groups who exploit charitable donations. Their tactic 
is to re-form themselves, once they're identified, under new 
names, and they continue their work in financing extremism. We 
think the government needs to pay attention to that.
    We urge the Government of Pakistan to work with us to 
accelerate joint efforts to prevent the financing of these band 
terrorist organizations. And we urge Pakistan to pass an 
antimoney-laundering bill that meets international standards, 
and to establish a financial intelligence unit within the state 
bank of Pakistan.
    But, beyond those steps, and beyond a more assertive 
military strategy, the Government of Pakistan wants to pay 
attention to the--its ability to help poor people resist the 
lure of terrorism, and, instead, turn their lives in more 
productive directions.
    So, that lies behind the two major programs that we've put 
in front of the Congress. We are asking for support, for this 
$750 million over the next 5 years. This is President 
Musharraf's personal request to our Government, to underwrite 
the humanitarian development of the tribal areas. And we think 
that has the prospect of being effective over the long term. We 
may not see immediate benefits. But, as a long-term measure, it 
is the right thing to do in the way to fight--to root out the 
roots of terrorism.
    Second, we're trying to jumpstart the reconstruction 
opportunity zones that President Bush and President Musharraf 
and President Karzai have all talked about. When President Bush 
visited both Afghanistan and Pakistan, in March 2006, President 
Musharraf said, ``One of the problems in the border regions, on 
both sides of the border, in the Pashtun areas, is that people 
don't have access to jobs. And so, would it be possible for the 
United States to bring into the United States, on a duty-free 
basis, goods produced by local people on both sides of that 
border, and, in fact, in enterprises that might straddle the 
border between Afghanistan and Pakistan?'' And we've put this 
concept of a reconstruction opportunity zone before the 
Congress, in staff briefings in February, and now we're going 
to ask for congressional support for this type of tariff 
reduction. It's a complicated proposal, and it deserves a lot 
of study. And I know that the Congress will ask lots of 
questions. And you should. But we think this initiative on 
trade, along with the initiative to help to try to bring some 
economic support to the tribal areas, is an effective long-term 
strategy.
    I'm happy to answer questions on any of this, Mr. Chairman. 
I would just say two more things before I close.
    You mentioned--and were right to mention--the fact that, by 
the end of January 2008, Pakistanis will go to the polls, both 
for a Presidential election and a parliamentary election. 
President Musharraf has said, many times, that he's pledged to 
hold free and fair elections in accordance with Pakistan's 
Constitution and within international standards. We have a 
partnership with the Pakistanis, and so, it gives us the 
opportunity to comment and to say that we would like to support 
the long-term objective of the Pakistani people to achieve a 
more--a fuller democracy and a better-functioning democracy, 
and to see democratic rights bestowed on all the people of 
Pakistan. And so, we've tried to be helpful. We're providing 
some technical assistance, as we do in many countries around 
the world in this situation, to the Pakistanis, to help them 
organize their elections. We're working with NGOs to do that, 
and with international organizations. But we believe the 
Pakistani people should be free to elect their own leaders. And 
we hope this is done in a way that would withstand 
international scrutiny. And we hope that there'll be a 
sustainable democracy, and a free press, and the right to free 
assembly. And I think we're beginning to see an independent 
judiciary assert itself, with the actions of the Supreme Court, 
just over the last week, in restoring to his position the Chief 
Justice.
    And so, it is a dynamic time for Pakistani democracy. And, 
of course, we'll have to balance the interests that we have in 
that country, in terms of our public comments--we don't want to 
seem to be as--at least our Government--as intrusive. But we do 
have a point of view, and we don't shy away from voicing that 
point of view.
    We believe the Pakistani Government can do more to help 
build this kind of evolution toward a full democracy, and that 
it's in its best interests to do that.
    And we'll all see the credibility of these elections. What 
will the result be? Will people be able to go to the polls 
freely and without fear of intimidation? Will they be able to 
go to election, free of government manipulation? Will political 
parties be able to organize and to contest the election? These 
are elementary standards in our country and in any country. And 
so, we assert them as interests.
    Finally, I would say--and my last point would say, Mr. 
Chairman--is that we are interested in education. We have a 
major program to help rebuild schools and, as I said, to be 
involved in curriculum development. And so, we're trying to pay 
attention, in a comprehensive way, to all the different 
interests that the United States has.
    I think you raise, quite rightly, the fact that we have to 
pay attention to the regional element of stability. We have 
been very, very active in promoting, mainly through private 
dialog, this nascent good beginning of better relations between 
India and Pakistan. My two counterparts, the Foreign 
Secretaries of both India and Pakistan, have a composite 
dialog, and they meet frequently, and they discuss the Kashmir 
issue, they discuss the Siachen Glacier issue, Sir Creek, and 
the other disputes that have been so difficult between the two 
countries for so many years, and we are optimistic that 
President Musharraf and Prime Minister Singh are dedicated to 
improve the relations between the two countries.
    And one of the largest strategic moves that I think 
President Clinton made, and now President Bush is making, as 
well, is to assert a bigger relationship with India, a 
strategic partnership. And, of course, we have this very close 
relationship with Pakistan. So, this is an opportunity for our 
country to be part of the development of a more stable 
relationship between the two biggest powers, and to see South 
Asia be a more peaceful region in relations among the great 
powers there in the future. And I--we're paying attention to 
that, and we're very much involved in it. And Secretary Rice, 
in particular, in her discussions with the Prime Minister of 
India and the President of Pakistan, has been very keen to make 
sure that the United States plays mainly a behind-the-scenes 
role, but a role that can be productive.
    So, forgive me for going on a little bit longer than I had 
anticipated. I have submitted testimony in written record, 
which is longer, still. And I'd be happy to answer any 
questions you have.
    [The prepared statement of Secretary Burns follows:]

    Prepared Statement of Under Secretary of State R. Nicholas Burns

    Mr. Chairman, thank you for this opportunity to appear before the 
Foreign Relations Committee. I am here today to underscore that 
successful American engagement with Pakistan serves our vital national 
security interests. Pakistan, one of our closest partners globally, has 
been indispensable in our world-wide struggle against radical Islamic 
terrorist groups. As Afghanistan's most influential neighbor, Pakistan 
plays a pivotal role in the prosecution of our war effort. Pakistan is 
also, of course, a leading Muslim country, whose future will be 
decisive in the search for stability in South Asia--a region of vastly 
increased importance to the United States.
    At the same time, Pakistan faces enormous internal challenges. 
While these challenges are its own to manage, we have a clear interest 
in its future stability, prosperity, and success. We hope the country 
will become more democratic, and are committed to remaining a close 
partner as Pakistan makes a full transition to democracy. Our national 
interests as well as the interests of 160 million Pakistanis depend on 
it.
    As this committee knows well, the history of America's relations 
with Pakistan during the last half-century has been especially 
tumultuous. We had early close cooperation in the 1950s after 
Pakistan's independence through SEATO and CENTO, but that gave way to 
disillusionment in the 1960s. President Nixon engineered a famous 
``tilt'' toward Pakistan, and then his successors tilted away. We 
partnered closely to defeat the Soviets in Afghanistan in the 1980s, 
but then parted ways over unwelcome advances in Pakistan's nuclear 
weapons program. Our post-9/11 cooperation takes place against this 
historical backdrop, as President Musharraf chose in 2001 to cast his 
country's lot with ours in the fight against terrorist groups.
    Indeed, September 11th brought the South Asia region to singular 
importance in our foreign policy for the very first time, and redefined 
our relationships there. The last six years have reinforced the 
dramatically changed nature of the global threats we face and the 
importance of our cooperation with Pakistan to counter them. South 
Asia, as a whole, has become central to our security, especially as we 
help Afghanistan to develop its fragile democracy and nurture 
institutions of governance in their infancy. Pakistan is critical to 
these efforts. For Pakistan's own development, we have pledged and 
delivered significant economic and military assistance, which I will 
address in greater detail. And yet we know that despite this clear 
indication of our commitment to their country, many Pakistanis believe 
we will again pull back-just as we did numerous times in the past. For 
this reason, I can think of nothing more important to this relationship 
at this moment than continued American attention, commitment, and 
engagement with the government of Pakistan, as well as with the people 
of Pakistan. Pakistanis should be assured that we will be a good and 
reliable friend. But, as a good friend, we will speak frankly and 
sometimes disagree on vital issues such as the best way to defeat 
terrorist groups, and the right way to build a democratic state. Our 
continued partnership will build Pakistan's confidence that indeed we 
share its interests. We seek for Pakistan nothing less than the 
fulfillment of the great promise that its founder, Mohammad Ali Jinnah, 
envisioned. We Americans should work to help Pakistanis build durable 
foundations for sustainable democracy, a moderate society, and an open 
economy that offers prosperity and opportunity for its citizens.
                  pakistan as a counter-terror partner
    Mr. Chairman, you and the members of the committee know how 
important Pakistan has been to our ongoing mission in Afghanistan. 
While the threat of the Taliban remains, this group of violent 
extremists no longer subordinates an entire country to its bizarre and 
cruel policies. Without Pakistani support and cooperation for our 
current military operations, we would face severe difficulties in 
supplying, reinforcing, and protecting our troops and those of our 
allies who are defending the democratically elected Afghan government.
    Countering terrorism and violent extremist ideology is a priority 
in our agenda with Pakistan. Terrorism threatens Pakistani security, 
too: President Musharraf himself has been the victim of several 
assassination attempts. And Pakistan does a great deal on this front, 
having killed or captured more al-Qaida operatives than any other 
country in the world. Since 2001, the Pakistani government has arrested 
hundreds of terrorist suspects, turning over to the U.S. such senior 
al-Qaida figures as Khalid Sheikh Mohammed, Ramzi bin al Shibh, and Abu 
Zubaida. Pakistan has stationed 100,000 troops on the rough terrain of 
the Afghanistan border, and more than 600 members of Pakistan's 
security forces have sacrificed their lives in support of anti-terror 
efforts. This month, after all decisively against extremists in 
Islamabad's Red Mosque.
    Despite these achievements, we know this fight will be long and 
extremely challenging. We know that the tribal areas of the mountainous 
border regions inside Pakistan have never been within the effective 
control of any central government. We know that the regions of North 
and South Waziristan have become safehavens for violent extremist and 
terrorist activity. Recent reports of al-Qaida's activity there 
underscore the need for Pakistan to continue its efforts, and elevate 
its efforts, to fight this enemy. In the Tribal Areas we have already 
seen an increase in violence at the hands of groups who stand in the 
way of security and peace. To quell the renewed violence in these 
areas, the Pakistani government has brought in additional troops, 
strengthened border posts and controls, and helped kill or capture 
major Taliban figures such as Mullah Obaidullah. It has also expanded 
its political efforts by working to boost the capacity and will of 
local tribes to resist and expel extremists in their midst, achieving 
some successes such as the expulsion of al-Qaida-affiliated Uzbeks in 
and around South Waziristan.
    These initiatives apart, we would like to see a more sustained and 
effective effort by the Pakistani government to defeat terrorist forces 
on its soil. Al-Qaida remains a potent force inside Pakistan, as is the 
Taliban. Defeating these enemies is essential to our effort to defeat 
terrorism in South Asia and around the world.
            strengthening pakistan's counter-terror capacity
    Our assistance to Pakistan has significantly strengthened 
Pakistan's capability to combat extremist forces. Assistance comes in 
two forms: security assistance, which enhances Pakistan's ability to 
fight terrorist actors, and bilateral assistance in areas such as 
governance and economic reform, focused on creating an environment 
inhospitable to terrorists and violent extremists.
    Our military and border security assistance has allowed Pakistan to 
establish a permanent presence in previously unpatrolled sections of 
the rugged Pakistan-Afghan border for the first time. We have provided 
equipment such as helicopters and radios to make these forces more 
effective, and we have also provided training. We work closely with the 
Department of Defense, with our Pakistani counterparts, and with 
Congress to keep these border forces appropriately equipped and 
properly trained to conduct counter-terror operations effectively.
    Mr. Chairman, counter-terror operations in the border areas of the 
Federally Administered Tribal Areas take place in a uniquely ungoverned 
environment. In recent days there has been increased attention on more 
aggressive actions, which we welcome, on the part of the Pakistani 
government to deal with these problems, and we would frankly like 
Pakistan to do even more here. The committee members will all be aware 
that President Musharraf has tried a number of methods to enlist 
counter-terror cooperation from local tribal groups, most notably with 
the North Waziristan Agreement. That agreement was designed to empower 
local tribes to fight al-Qaida directly, in order to reduce incidents 
of Pakistani Army forces fighting against their fellow citizens 
inadvertently. Apart from the successful expulsion of Uzbek terrorists, 
the tribes proved too often unable or unwilling to control the al-Qaida 
elements within their territories. This agreement has not worked well 
for the Pakistani government, nor has it worked well for us. As a 
result, the Pakistani government has recently reinserted its forces 
into the tribal areas. We would like to see the top al-Qaida and 
Taliban leaders, who we believe intentionally use Pakistan as a 
safehaven, brought to justice. Long term denial of these areas to 
terrorists will require local cooperation, and Pakistan will have to 
find a more effective and successful way to do so.
    We want to see Pakistan use all tools at its disposal to choke the 
flow of funds to terrorist groups. We are particularly concerned about 
terrorist groups exploiting charitable donations, and by their tactic 
of re-forming under new names to evade international prohibitions on 
donations to terrorist organizations. We urge the government of 
Pakistan to work with us to accelerate our joint efforts to prevent 
financing of banned terrorist organizations. We urge Pakistan to pass 
an Anti-Money Laundering bill that meets international standards, and 
to establish a Financial Intelligence Unit within the State Bank of 
Pakistan.
            the long-term: development to counter terrorism
    Beyond these specific counter-terror efforts, we seek to diminish 
the effectiveness of terrorists in the Tribal Areas and elsewhere by 
changing the economic opportunities available to the desperately poor 
and chronically ungoverned. President Musharraf shares with the USG a 
recognition that we cannot counter terrorism and other forms of violent 
extremism by military means alone; we must create an environment 
inhospitable to future terrorism. To this end, we have a major program 
of economic assistance to Pakistan, our fifth-largest aid program 
worldwide. This year, we worked with Congress to provide $843 million 
for economic and security assistance to Pakistan, including expanded 
efforts in the Federally Administered Tribal Areas (FATA). We tailor 
our development assistance in Pakistan to build sustainable growth, 
improve living standards, and promote good governance, responsible 
citizenship, and foreign investment.
    During President Bush's visit to Islamabad in March 2006, President 
Musharraf asked for a substantial U.S. effort to help implement the 
FATA Sustainable Development Plan. In February, we briefed the Congress 
on our multi-year plan to assist Musharraf's effort. We plan to seek 
$150 million per year for five years--a total of $750 million from FY 
2007 to FY 2011. These funds will be used to assist the government of 
Pakistan to improve livelihoods and employment, improve access to 
health and education, improve infrastructure and roads, and assist the 
government to improve communications with the people of the Tribal 
Areas on the programs planned and delivered. We believe this initiative 
will help eliminate extremist safe havens on the Afghan border and 
reduce the appeal of extremist ideology.
    The Tribal Areas are some of the poorest regions in all of 
Pakistan. Domestic extremists inside Pakistan rely heavily on a large 
population of young men lacking access to a modern education and to 
quality employment. Economic and educational reform can play a 
significant role in Pakistan's domestic anti-extremist efforts. We 
believe this Pakistani strategy, supported by the U.S. and other 
international donors, has the potential to make these areas less 
hospitable over the long term to al-Qaida, the Taliban, and other 
extremist groups, while improving the quality of life for citizens 
there. We also intend to support the local security force, the Frontier 
Corps, by developing its capacity to extend the rule of law throughout 
the Tribal Areas. Our funding will be used to boost the capacity of the 
local governmental agencies to implement these funds over a 5-year 
period.
    Mr. Chairman, President Bush has also announced his intention to 
jumpstart the creation of Reconstruction Opportunity Zones as a 
critical part of our broader counterterrorism strategy, designed to 
connect isolated regions to the global economy and create greater 
employment opportunities in territories prone to extremism. Through 
these zones, located in the border regions of Pakistan and Afghanistan, 
we hope to encourage investment and economic development by granting 
duty-free entry to the United States for certain goods produced on both 
sides of the border. We hope that new investment will, in turn, create 
employment alternatives for working-age young men who may otherwise be 
drawn into terrorism, narcotics trafficking, or other illicit 
activities. We expect the zones to be a focal point for interconnected 
efforts by the governments of Afghanistan and Pakistan as well as the 
international donor community to build better roads and other 
infrastructure improvements, and to remove bureaucratic barriers to 
investment and export. We want to work with Congress to pass the 
legislation necessary to create this trade preference program so that 
we can utilize this important economic tool in our fight against 
terrorism.
                   progress on counter-proliferation
    Mr. Chairman, in the last three years we have seen some progress by 
Pakistan in disabling the A.Q. Khan proliferation network and taking 
steps to deny its reconstitution. A.Q. Khan did enormous damage to 
international efforts to restrain the spread of nuclear technology. The 
government of Pakistan has direct responsibility to help us undo that 
damage and ensure it does not happen again. During President Bush's 
visit to Pakistan in 2006, President Musharraf committed that Pakistan 
would take a leading role in international efforts to prevent the 
proliferation of weapons of mass destruction, their delivery systems, 
and related technology and expertise. We welcome the action Pakistan 
has taken to bring its export controls in line with international 
standards, including the recent establishment of a Strategic Export 
Control Division within its Ministry of Foreign Affairs to centralize 
licensing and enforcement. Pakistan continues its cooperation with the 
United States under the Export Control and Related Border Security 
(EXBS) program. We welcome Pakistan's participation in the Container 
Security Initiative and the Secure Freight Initiative, under which the 
United States and Pakistan worked together to install screening and 
radiation detection equipment to scan U.S.-bound cargo. We are also 
pleased that, in early June, Pakistan joined the Global Initiative to 
Combat Nuclear Terrorism. We remain engaged with Pakistan on this full 
range of nonproliferation and counter-proliferation issues, as they 
remain vital to U.S. and global interests and key to ensuring a shadow 
proliferation network does not arise again in Pakistan. Additionally, 
the U.S. Department of Energy is working with their counterparts in 
Pakistan on radiation source security and is in the process of 
finalizing an agreement to install radiation detection equipment at 
Pakistani ports and border crossings. We hope Pakistan will continue to 
take steps to join additional international nonproliferation programs 
and regimes so it can finally move beyond the stigma of the A.Q. Khan 
era.
                    supporting democratic transition
    Before the end of January 2008, Pakistanis will go to the polls-
both for president and parliament. President Musharraf has pledged to 
hold free and fair elections in accordance with Pakistan's Constitution 
and with international standards. Our partnership with the Pakistanis 
gives us an opportunity to support the long-term objective of 
Pakistan's transformation to a modern, democratic state, and a moderate 
voice in the Islamic world.
    To support Pakistan's electoral process, we are providing technical 
advice and assistance. We believe that Pakistani citizens must be able 
to freely and fairly choose their own leaders, and chart their own 
course through a civilian-led democratic government, in accordance with 
the Pakistani Constitution, as President Musharraf has promised. But we 
in the U.S. also know that democracy means more than just holding 
elections. It means building the foundations of sustainable democracy: 
a free and vibrant press, the right to free assembly, an independent 
legislature and judiciary, active civil society organizations, and 
broadly participative and internally democratic political parties. The 
Pakistani government will need to do more to help build such a system 
of government. Our governance and democracy assistance programs aim to 
strengthen institutions such as a free media, a responsive legislature 
and issue-based political parties and support nongovernmental 
organizations, with an eye to bolstering Pakistan's civil institutions 
and long-term political stability. Department of Justice programs in 
Pakistan, supported by the State Department, work to ensure an 
accessible, viable, secure justice system. These efforts also work 
toward ensuring that Pakistan has the legislative tools necessary to 
meet international conventions.
    Throughout the world, the United States backs democratic 
institutions with training, assistance and political support. We plan 
to intensify these efforts in Pakistan in the months and years ahead. 
The credibility of Pakistan's elections will rest on the ability of 
Pakistani political parties to campaign and seek votes openly; the 
ability of Pakistani voters to vote on election day for the political 
parties and candidates of their choice, in an election free of 
government manipulation; the ability of political parties to adjudicate 
post-election disputes in a timely fashion; an election commission that 
is viewed by political parties as independent and impartial; and the 
ability of those political parties who emerge with a majority of the 
votes to form a democratic government reflecting the will of Pakistan's 
electorate.
                     supporting opportunity for all
    Nothing determines individual, and therefore societal, success more 
than access to education. We have thus made education a core focus of 
our economic assistance. We are supporting the Pakistani government's 
efforts to upgrade public education, placing emphasis on improving the 
quality and affordability of Pakistan's public schools. USAID is 
helping increase school enrollment by constructing and furnishing 
sixty-five primary, middle, and high schools in five agencies within 
the Federally Administered Tribal Areas. These efforts will allow 
impoverished parents to give their children educational opportunities 
beyond religiously oriented madrassahs.
    We are pleased that the increased resources to Pakistan's education 
sector have already shown encouraging results. National school 
enrollments have increased 5.7% from 2000 to 2005. In the Punjab, 
Pakistan's largest province, provision of free textbooks and stipends 
paid to female students have increased enrollment by more than two 
million students since 2001, many of them female. In the Federally 
Administered Tribal Areas, enrollments have increased 38% since 2000 
with female enrollment accounting for 27% of the total. National female 
literacy rates increased from 32% in 1998 to 40% in 2005.
    Pakistan has undertaken a comprehensive reform of its school 
curriculum, which aims to remove teaching material encouraging violent 
extremism, and to modernize school curricula in areas such as English-
language, science, history, and mathematics. In addition, in 
recognition of the critical role that international study and higher 
education play in developing the next generation of Pakistani teachers 
and leaders, we have partnered with Pakistan to make available over the 
next few years 500 Fulbright Commission scholarships for graduate 
degree study in the United States. This represents the largest U.S. 
government dollar contribution to any Fulbright program in the world, 
and helps Pakistan strengthen its human capital base to support its 
university system and build an innovation society. Programs for youth 
and their teachers have also been quite successful. To date, 157 
Pakistani high school students have spent an academic year with U.S. 
host families under the YES (Youth Exchange Study) program. Fifty-five 
more students are expected for the upcoming academic year.
    The State Department's Bureau of Educational and Cultural Affairs 
is also funding teacher training programs in Pakistan, including in the 
Federally Administered Tribal Areas, as well as bringing Pakistani 
teachers to the U.S. for additional training. This summer, for example, 
for the fourth consecutive year, teachers from across Pakistan have 
studied educational methodologies at Plymouth State College in New 
Hampshire. Since 2004, the teachers returning from Plymouth State have 
trained 10,000 more of their colleagues.
    We are also working closely with our Pakistani and non-governmental 
partners on women's rights and legal protection for ethnic and 
religious minorities, and combating forced child labor and human 
trafficking. The State Department's Office of Democracy, Human Rights, 
and Labor plans to provide $150,000 to the Mukhtaran Mai Welfare 
Organization for gender-based violence training for its resource center 
workers, and will also offer capacity building and strategic planning 
technical assistance.
    Women's health is a particular challenge in Pakistan, but we 
believe the rate of maternal mortality can be lowered significantly 
with properly trained rural health providers. The U.S. Agency for 
International Development (USAID) provides such training. In December 
2006 President Musharraf signed the Women's Protection Act amending the 
Hudood Ordinance, marking a significant step toward improving the legal 
rights of women in Pakistan by allowing criminal courts (rather than 
religious courts) to try rape cases. The Act marks the first time in 
nearly three decades that a Pakistani government has modified 
discriminatory laws that have stood virtually untouched since the time 
of General Zia-ul-Haq.
                 getting our message across accurately
    Mr. Chairman, as you can imagine, we face an active and often 
hostile press in Pakistan. Our public diplomacy programs in Pakistan 
disseminate our message to the widest possible audience and expose 
influential people and institutions to U.S. policies, views, and 
values. Despite considerable security constraints, our outreach 
programs include long-established and respected exchange programs such 
as the Fulbright, Humphrey, and International and Voluntary Visitor 
programs, as well as innovative use of print and electronic media, the 
internet, five new Lincoln Corners centers, a visiting speakers 
program, and an enhanced public speaking engagement program for mission 
personnel to further share our policies and values with the Pakistani 
public. Pakistan is one of 19 pilot countries that will receive 
significant new funding from the $40 million allocated to public 
diplomacy as part of the Global War on Terror FY 2007 supplemental.
    But it is our concrete assistance to average Pakistanis that has 
been the best form of public diplomacy. I was impressed and moved by 
the Pakistani reaction to U.S. earthquake assistance in 2005, where the 
immediate and overwhelming support of the U.S. military, USAID disaster 
relief and reconstruction assistance, and the donations of private 
Americans saved many lives. The U.S. government provided nearly $280 
million in emergency and reconstruction assistance in the response to 
the earthquake in FY 2006. This year, the Pakistani government will 
direct $50 million in local currency to earthquake reconstruction 
expenses from the local currency generated by the $200 million we 
provided in budget support. Nothing could have been more effective in 
demonstrating American values and disseminating a message of friendship 
between our peoples. Indeed, we have data which illustrates the impact 
of this visible aid: public opinion surveys in Pakistan carried out 
right after the earthquake and subsequent American relief efforts 
showed favorability ratings of the U.S. doubling, from 23% to 46%.
              working toward regional peace and stability
    Mr. Chairman, it is very much in our interest to see Pakistan's 
relations with neighboring states improve. We continue to work with the 
Pakistani and Afghan governments to strengthen stability along the 
twists and furrows of their 1500-mile-long border. The joint statement 
issued by President Musharraf and President Karzai in Ankara this 
spring demonstrates some hope that cooperation between the two 
countries might improve. But tensions remain, and the two governments 
need to make a greater and more sustained effort to work effectively 
together. U.S. and NATO policies must continue to foster expanded 
Pakistan-Afghanistan bilateral dialogue, stronger economic and trade 
ties, and deeper cooperation between Pakistani and Afghan border 
security forces. With U.S. assistance, Pakistan is working to secure 
its border with Afghanistan to prevent the smuggling of arms, 
terrorists, and illegal drugs which are fueling the Taliban insurgency. 
The difficulties of this terrain cannot be overstated but we will 
continue to work with Pakistan to place it under control.
    On the eastern border, we have been pleased to see renewed 
commitment to Indo-Pakistan reconciliation. Pakistan and India opened 
the fourth round of the Composite Dialogue this past March, a process 
originally launched in 2004. The Dialogue addresses their long-standing 
differences, not only over the Kashmir issue, but over other issues 
such as the Siachen Glacier and Sir Creek. They have also opened a 
direct channel to discuss counterterrorism, which we think is extremely 
useful. We have been encouraged by the success of confidence-building 
measures such as bus and rail links that restore old connections 
severed at partition, allowing ordinary people to visit relations and 
friends. We will continue to support both countries to improve their 
relations. Secretary Rice and I have made a long-term improvement in 
relations between India and Pakistan, and especially resolution of the 
Kashmir dispute, a very high priority in our frequent high-level 
discussions with both countries.
    When she became Secretary of State two and one-half years ago, 
Secretary Rice also promoted the creation of new economic and 
technological links between South and Central Asia as a major American 
priority. Pakistan and South Asia in general offer dynamic new markets 
for energy from the landlocked nations of Central Asia. The largest 
country in the region, India, has seen 8-9% economic growth in recent 
years, accompanied by a rapid increase in energy consumption. It is now 
the third-largest energy consumer in the world. Through infrastructure 
projects such as roads and hydroelectric power in Turkmenistan, 
Afghanistan, and Pakistan, we envision helping to tie these countries 
closer together so they can provide a long-term and oil and gas bridge 
from the Central Asian north down to South Asia. As economic 
relationships develop to knit the countries of this broader region into 
new areas of interdependence, we believe changed calculations of 
national interests will offer dividends of peace and stability for all.
    Pakistan is attempting to expand its sources of energy, and like 
India, is looking at Iran as a source. We have made it abundantly clear 
to both the Pakistani and Indian governments that a proposed pipeline 
project with Iran is a bad idea, given Iran's refusal to comply with 
its international nonproliferation obligations. We will continue to 
urge Pakistan to pursue other sources for its growing energy needs.
                         our people in pakistan
    Our embassy in Islamabad is currently led by one of our most 
experienced and accomplished diplomats. Anne Patterson, who was 
recently confirmed by the Senate, has already led the mission through 
the Red Mosque standoff and its fallout, as well as the recent post-
cyclone flooding.
    Embassy Islamabad and our consulates in Karachi, Lahore, and 
Peshawar are dangerous and difficult posts, designated as unaccompanied 
for families and loved ones, but our fine men and women serve with 
distinction to advance key U.S. interests and to construct our 
important strategic relationship with Pakistan.
                           closing statement
    Mr. Chairman, in closing let me reiterate that the partnership 
between Pakistan and the United States is successful and improving. 
Both of our peoples have spilled blood in our common struggle to defeat 
the terrorist enemy. Much remains to be done, however. We must continue 
to focus on bringing top al-Qaida and Taliban leaders to justice. We 
must continue the momentum engendered by Pakistan's recent success in 
capturing or killing several Taliban leaders. And we must continue our 
joint focus on moderating the extremism that emanates from Pakistan, 
which our long-term development assistance targets.
    We applaud the efforts of Pakistan, ask for its continued support 
to defeat the extremists, and commit our support in return. In this 
year of momentous transition for Pakistan, we are determined to ensure 
that the substantial resources the American people provide to Pakistan 
are utilized efficiently, effectively, and to support what all of us 
want: Pakistan's transformation into a more stable, open, and secure 
nation where its people can, in the future, live peacefully.
    We look forward to working with Congress toward this goal.
    Thank you, and I would be happy to take any of your questions.


    Senator Kerry. Thank you very much, Secretary.
    Your full statement will be placed in the record as if read 
in full, and we appreciate that. And we're glad you did go on. 
I think it's important to do so.
    Given the number of Senators, what we'll do is have a 7-
minute round, and then, hopefully, we can come back a second 
time, if people want to do that.
    Mr. Secretary, in your testimony, you separated--and I want 
to separate, for the purpose of this early discussion--the, 
sort of, democracy and some of the issues, on one side, and 
then the effort to fight terror, on the other. And you 
certainly made the effort to deal with the increase in 
terrorism and al-Qaeda paramount. And I think we would agree 
with that.
    That said, as I listened to your testimony, and I listened 
to the talk of dealing with the charities and the financing, 
and dealing with the money-laundering and financial 
accountability, and then, of course, the economic side that you 
talked about, the sort of humanitarian investment, and I don't 
see, in any of that, a clear or comprehensive analysis with 
respect to how you're going to deal with al-Qaeda and with the 
increased influence of the Taliban, and the movement of weapons 
and people between Afghanistan and Pakistan. You did say, in 
your testimony, that--I think you agree--that there are areas 
which clearly are under Taliban, and or, al-Qaeda control. You 
agree with that, correct? There are areas in the territories, 
as well as in the border region, including in Waziristan, where 
it's almost a no-man's land.
    Secretary Burns. Mr. Chairman, I think I remember saying 
that al-Qaeda has certainly found a refuge, as have many 
members--many leaders of the Taliban--inside the Pakistan part 
of that border. I think I also mentioned that one of the cruel 
historical facts of that area is that it's been----
    Senator Kerry. Is that they've----
    Ambassador Burns [continuing]. Ungoverned----
    Senator Kerry [continuing]. Never been fully under control.
    Ambassador Burns [continuing]. Or----
    Senator Kerry. I understand.
    Ambassador Burns [continuing]. All of Pakistan----
    Senator Kerry. I understand. But let me come to where we're 
in a critical struggle against an individual without ideology 
who is determined to blow people up, kill them. And we all 
understand the threat of al-Qaeda. I don't have to go through 
that repetition here. But I don't hear from you the strategy 
that suggests anything that's going to really alter that in any 
fundamental way. And I think the question that a lot of 
Americans and other people ask, is: How is it that you can have 
a relationship with a country, and you give them $10 billion, 
and they're ostensibly a democracy, and you hear these words, 
but here are these folks who are criminal, No. 1, to the 
world--again, ostensibly--and they live, sort of, with impunity 
in this area, continuing to plot against the United States and 
other countries?
    Now, recently, Frances Townsend, the White House 
Coordinator for Homeland Security, was quoted as saying, ``All 
options are on the table when it comes to intervening in 
Pakistan.'' Can you share with the committee, are those really 
thoughts that, sort of, go to the far end of what I'm saying 
about how you deal with this? If there is no capacity to 
effectively find them, capture them, ``take them out,'' what is 
the option that we're looking at, realistically?
    Secretary Burns. Thank you, Mr. Chairman.
    I would answer your question by saying the following. We 
have to have an effective strategy to defeat al-Qaeda in that 
region, based on three factors:
    First of all, there has to be an effective effort by the 
Pakistani military to deal with the threat inside Pakistan. 
And, I think, in my written testimony, and I tried to capture 
in this in my oral comments, they've done some good things. We 
know there's a commitment there. But it has not been as 
effective as it should, and we are asking the Pakistani 
Government to do more.
    Second----
    Senator Kerry. So, that's exclusively a Pakistani effort?
    Secretary Burns. Well, I was just going to answer in three 
parts. I mean, that's----
    Senator Kerry. Right.
    Ambassador Burns [continuing]. The first thing that has to 
happen.
    Second, we have a responsibility, with the Afghan 
authorities, on the Afghan side of the border. Most of the 
American forces, as you know, in Afghanistan are stationed in 
the east, along the border, and then, we have four principal 
NATO-country forces in the south. We have the British, we have 
the Dutch, we have the Canadians, and we have other forces in 
the south. That's the force--that NATO force--that needs to 
deal with the Taliban as it comes across the border, as it 
finds refuges inside of Afghanistan.
    And, third--and what we have been lacking and need to see 
an improvement on--we need to see effective cooperation between 
Afghanistan and Pakistan. You know, President Bush has tried 
very, very hard, on a personal level, to bring President Karzai 
and Musharraf together. That's been at the command level. You 
mentioned General Eikenberry. He was involved in a tripartite 
effort, as his successors are, on a regular basis, to try to 
bring the three militaries--United States, Pakistan, and 
Afghan--together.
    Senator Kerry. Well, it's my information that that was a 
dreadful meeting, had a dreadful outcome, that the relationship 
between President Karzai and President Musharraf is strained, 
at best, and that there isn't really a high level of 
cooperation.
    Secretary Burns. There have been many meetings. Sometimes 
the United States is present at the meetings, sometimes 
Pakistan and Afghan leaders, including the two Presidents, meet 
together, and they must continue, because they are fated to 
live next door to each other, and they confront the same 
challenge on both sides of that one border.
    I would then just say, finally, Senator Kerry, that--you 
asked about Fran Townsend's remarks--as we've reflected on 
this--and, I think, to be fair to her and what she said the 
other day--we understand that Pakistan is sovereign in its own 
country. We understand that Pakistani forces are in the battle. 
And it is always the preference to work with Pakistan on this 
issue of counterterrorism. Fran said, the other day, and quite 
correctly, that, given the primacy of the fight against al-
Qaeda and Osama bin Laden, if we have, in the future, certainty 
of knowledge, then, of course, the United States would always 
have the option of taking action on its own, but we prefer to 
work with the Pakistani forces, and we, in most situations, 
nearly every situation, do work with them.
    Senator Kerry. Well, do you have any confidence, at this 
point, that President Musharraf is, in fact, prepared to change 
his strategy with respect to what the forces will be used for, 
and how, in those territories what their engagement will be 
now? Because last time, as you said, they went in there, it was 
sufficiently tough for them, and negative, that they decided to 
come out. And that's what prompted the agreement, in the first 
place. Is there any indication that that would be any different 
today?
    Secretary Burns. Well, there's every indication. It's hard 
to predict the future. And it's really difficult to say how 
successful the Pakistani forces will be. But, just in the last 
several weeks----
    Senator Kerry. Was there something that's happened that's 
changed what that outcome might be?
    Secretary Burns. Well, I think so. I think it's--I think 
it's been apparent, over the last few weeks, that the 
Waziristan agreement, to let the tribal leaders taken on al-
Qaeda and the Taliban, did not succeed. And so, we've seen a 
reintroduction of Pakistani military forces. And there's been a 
tremendous amount of military activity, and lots of fighting, 
by--on the part of the Pakistani military, against these 
forces, just in the last few weeks. And you've seen lots of 
terrorist bombs, suicide bombings, as well, particularly since 
the Red Mosque incident. So, we've definitely seen a change of 
tactics by the Pakistani Government, and we want to be 
supportive of them. But, as I said before, the Pakistanis, 
quite rightly, are also focused on the longer term battle for 
the hearts and minds of the people who live in the tribal 
regions; thus, the need for us to work with them on the 
economic and humanitarian support within the tribal areas 
itself.
    Senator Kerry. Well, that certainly is a long-term task, 
but I'm not sure it's particularly encouraging or instructive 
with respect to what happens to those known enclaves and safe 
harbors that exist today. I mean--well, I'll come back. My 
round is a minute over, and I don't want to abuse it, so I'll 
come back afterward on that.
    Senator Lugar.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    In this hearing, and in others that the committee has 
conducted on Pakistan, we've always touched upon democracy. 
You've mentioned, specifically, elections are going to occur 
for President of the country, and the legislature, within the 
next 6 months, more or less. Now----
    Secretary Burns. Yes, sir.
    Senator Lugar [continuing]. Sketch out your judgment about 
what we would call a speedy return to democracy--in other 
words, a reintroduction that would allow for much greater 
participation; potentially, political parties. If such free and 
open elections were held in Pakistan in the coming months, who 
would likely win? What would this mean for U.S. strategic 
interests? And how does this greater political participation 
meld together with, clearly, the militants who are involved in 
Pakistan, attempting to destabilize the country, if not the 
democratic process?
    Secretary Burns. Thank you, Senator Lugar.
    We do have an interest--a real interest in the fate of 
Pakistani democracy. Now, obviously the country has gone 
through a very unusual period over the last 7 or 8 years, where 
there's a lack of a full democracy. But the country, the 
government, has also been fighting this extraordinary rise in 
terrorism against the people of Pakistan and the government 
itself. So, as the government has tried--the Government of 
Pakistan--has tried to balance both a professed open commitment 
to want to return to democracy, but a priority, I guess it 
would say, in dealing with the terrorist threat, we have tried 
to encourage it to continue on that democratic path and not to 
let it founder.
    It's hard for me--and I think it probably would be naive of 
me to try to predict--and unwarranted of me--to predict 
election results, except to say these are important elections, 
because Pakistan has a very lively set of political parties and 
a very rich political history and some quite dynamic 
politicians. And our hope would be that the political parties 
that are democratic and that are patriotic and that do not 
support terrorism, of course, would be free to contest these 
elections. And it shouldn't be, I think, for the United States 
to favor anybody in those elections, or to predict who might 
win, but we should certainly support that process. And we're 
trying to, as I said, through our technical training, but, more 
importantly, through our voice, in saying that, even in a 
difficult terrain--place like Pakistan, where this huge battle 
is underway between extremists forces and the government, 
countries can still practice democracy and at least find their 
way back to a full democracy. And so, that would be, I think, 
the way I would summarize our views and what we're trying to 
do, as an outsider, commenting on what are really their 
internal affairs.
    Senator Lugar. Could one of the results of this election 
and the new officials be some sort of difference in the safe-
haven situation for al-Qaeda, but, likewise, A.Q. Khan? We've 
talked a lot about al-Qaeda, but some would say that, as a 
matter of fact, out of Pakistan has come the intelligence, 
sometimes materials, perhaps even guidance, for weapons-of-
mass-destruction systems in other countries. We know, from our 
experience in Libya, specifically, a great deal of testimony 
about the A.Q. Khan network. Yet, for the moment, in the 
current situation in Pakistan, he [A.Q. Khan] is out of reach, 
out of touch, certainly with us. This is of great consequence 
in our foreign relations and in our nonproliferation situation 
around the world. Do you have any comment about potential 
events in that realm?
    Secretary Burns. Well, I would just agree with you, Senator 
Lugar, that A.Q. Khan and his network did enormous damage to 
our global efforts in the international community to try to 
restrain nuclear proliferation. And we trust, and we will 
expect, that the Pakistan Government will continue to make sure 
that that network can never arise again, or any similar network 
can arise again. And the Pakistani Government knows full well 
the determination that we have to make sure that doesn't happen 
again.
    So, I would agree with the thrust of your question, and you 
can be sure that, for many years, we've been impressing--we've 
been pressing that point on the Pakistani authorities. It's 
really their obligation--he apparently is under some form of 
house arrest there--sort of, their obligation to make sure that 
he or his associates or acolytes are never again in a position 
to trade, on the black market, a nuclear technology, the way 
that that network did in such an insidious way.
    Senator Lugar. Does this have any relationship to democracy 
in Pakistan, and to much more of a free flow of ideas and 
debate, or would, regardless of who is elected, all of the 
group want to protect A.Q. Khan? In other words, I'm trying to 
develop at least--is there some scenario in which things change 
from the rigidity that we observe?
    Secretary Burns. That's a--I guess I would say, Senator, 
that, you know, as we look ahead, we would expect that any 
responsible Pakistani politician would have to stand--we would 
want them to stand with us in two ways: First and foremost, 
against al-Qaeda and the Taliban; and, second, against those 
who would proliferate Pakistan's nuclear technology. Those are 
vital national interests that extend to our global foreign 
policy, and we have not been shy about making that point, not 
just to the government, but to some of the politicians in 
Pakistan who are outside the government, at the present time.
    Senator Lugar. In other hearings on Pakistan, we have heard 
testimony about the lack of public schools, and, therefore, the 
reliance upon the madrassahs. As you say, we would like to try 
to help that situation. As a practical matter, given the size 
of the country, really, how can we help the Pakistanis organize 
a public school system so that there could be development 
through education for the children of the country?
    Secretary Burns. Well, it's a major priority for us. We 
are--as you know, we, with the agreement of the Congress, have 
committed a great deal of money to try to support the Ministry 
of Education--and I've met with the Minister of Education in 
Islamabad--to try to build public schools; No. 1, to give kids 
access--as Senator Kerry said, kids who haven't had it--to 
schools; and, No. 2, to the right kind of schools, not to 
those--at least some of the madrassahs who--that have been so 
much the source of intolerance in Pakistani society. And so, 
we're funding that, both school construction--we're encouraging 
curriculum change, and we're trying to help the Pakistani 
Ministry of Education free up some money to do those very 
things. But, as you say, it's an enormous challenge. It's a 
poor country, 160 million people, and a country that doesn't 
have as much--of a strong central government with a pervasive 
influence throughout the country as, say, you find in many 
other countries. So, it's a big challenge, but we're on to it, 
and we're working very hard, and we appreciate the support of 
the Congress in committing the funds necessary to achieve that 
purpose.
    Senator Lugar. Thank you.
    Senator Kerry. Thank you, Senator Lugar.
    Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman.
    And, Under Secretary Burns, thank you for coming before the 
committee today to discuss Pakistan. As we were reminded in the 
recently declassified National Intelligence Estimate, Pakistan 
is, of course, vital to our fight against al-Qaeda.
    Mr. Chairman, I have a full statement I'd like to put in 
the record, if I could.
    Senator Kerry. Without objection.
    Senator Feingold. Thank you.
    The latest NIE only reinforces my--and many of my 
colleagues'--belief that this administration has failed to 
focus on the true threats to our national security, and in 
particular, the threat posed by al-Qaeda. If Pakistan is our 
ally in this fight, why have we not yet gotten at the root of 
the problem which so directly impacts our national security? 
Why--while al-Qaeda has strengthened its safe haven, we have 
watched political and religious upheaval grow across Pakistan. 
We need to support the tenets of democracy and the rule of law 
in Pakistan just as much as we support security and 
counterterrorism initiatives. If we're to truly protect our own 
national interests, we must commit ourselves to eliminating 
corruption and poor governance, endemic poverty, and the 
historic marginalization that has allowed terrorists and other 
threats to fester.
    But I do thank you, again, appreciate your thoughts. And 
let me ask a couple of questions.
    It seems that, in the post-9/11 era, anti-American 
sentiment in Pakistan has grown significantly as has religious 
extremism, which recently led to the Lal Mosque crisis. The 
increased rate of attacks by suicide bombers across the country 
is also notable. To what do you attribute these developments, 
and what steps are being taken to address them?
    Secretary Burns. Senator, thank you.
    First of all, let me just say that I would just 
respectfully, and very respectfully, disagree that somehow the 
United States Government has not been focused on the fight 
against al-Qaeda. We have been focused, and we've made a major 
effort, both in security assistance with the Pakistani 
military, to the economic assistance that Congress has been 
good enough to fund, but also in Afghanistan. We've recently, 
this year, increased our troop presence to 27,000 soldiers. 
When I first started going to Afghanistan, in 2002, we had less 
than half that number of American troops in Afghanistan. We've 
built up, over the last couple of years, because we do 
understand that our national security interests are on the line 
there, in both countries--Pakistan and Afghanistan. So, I think 
we've made the effort.
    The question is: Can we sustain an effective effort among 
three countries--Afghanistan, the United States, and Pakistan? 
And we bring in, of course, 25 NATO allies into that mix, and 
lots of other countries in the international force. So, it's a 
complicated effort. I would say that we can do a better job in 
trying to elicit a stronger performance from the Pakistani 
military inside their border. I said to Senator Kerry, in 
response to one of his questions, that we need, obviously, to 
improve the cooperation, or see an improvement, between 
Afghanistan and Pakistan itself. And I think most of us would 
say that NATO has done very well to go in, to be present, to 
fight. The Canadians have lost more people there than any 
conflict since the Korean war. But we haven't had a seamless 
effort between the NATO military effort and the international 
civilian effort in Afghanistan.
    So, we would never claim that this is a perfect situation. 
We can do better. But I think we've made a major effort, and we 
are committed to it.
    I wanted to say that, because I believe that very strongly, 
personally.
    Senator Feingold. Well, I recognize the increased effort 
with regard to Afghanistan. I think it needs to be recognized, 
in the record, that it came pretty late, after what I consider 
to be almost an obsessive emphasis on Iraq, to the point where, 
when I was in Afghanistan, I even had our troops saying, 
``Where did our resources go, here in Afghanistan?'' But I know 
that you sincerely want to have the proper emphasis on 
Afghanistan and Pakistan, so I'd ask you to respond to the 
other part of my question, that had to do with Pakistan itself, 
and the----
    Secretary Burns. Right.
    Senator Feingold [continuing]. Anti-American issue.
    Secretary Burns. On--to answer that question, Senator, I 
would just say that there--you know, as you know, there's a 
battle underway between these extremist forces inside Pakistan 
and the government. And I think that battle will extend to the 
other democratic political parties, let's face, for the future 
of Pakistan. And so, we need to be present to give the right 
type of assistance, and we need to be committed, over the long 
term, to help them.
    Anti-Americanism? I think there are a lot of reasons for 
it. It's certainly very much present in Pakistan. What's 
interesting is that, when our military went in to the 
mountainous areas, after the earthquake, and delivered, in 
record time, humanitarian assistance, we saw, in the public 
opinion polls, nearly a doubling of the American approval 
rating, because people began to see the United States not just 
as a foreign military force operating close to Pakistan inside 
the Afghan border, but as a military that could help them in a 
time of great trouble.
    And so, obviously we need to do what's right, continue to 
assist the antiterrorism effort, but we need to also assist the 
people, through education, through humanitarian development. 
That's why we're asking the Congress for this commitment of 
$750 million over 5 years for the tribal areas. That's nearly 
all money to be spent to improve people's lives, and it's 
through that kind of commitment, I think, that you'll gradually 
see--probably not overnight, but gradually--an improvement in 
how people see our country in that--in a very difficult 
environment.
    Senator Feingold. I think that's a fair point. And I'd--
same thing with Indonesia, where we saw the numbers go up after 
the----
    Secretary Burns. Right.
    Senator Feingold [continuing]. Tsunami. But, you know, 
obviously we can't wait for disasters for this to happen. And 
the problem is, is that when it isn't something like a 
disaster, it's a little--it's a lot more complex, the way that 
we're perceived, and what we're doing is perceived; plus, it's 
harder to persuade the American people to put the resources in, 
to have them believe that it will have the bang for the buck, 
in terms of better relations. But I do agree with the general 
sentiment, very much.
    A recent article in The New Yorker magazine referenced the 
``economic empire'' run by Pakistan's military, including 
findings in a recently published book by Ayesha Siddiqa, which 
estimated that Pakistan's military controls business assets of 
more than $20 billion, with interests ranging from cement and 
dredging to the manufacture of cornflakes and the baking of 
bread. Can you comment on what positions the administration has 
taken, publicly and privately with the Pakistanis with regard 
to these commercial ventures? And how do they impact the 
military's professionalism in Pakistan? And are we taking any 
steps to, you know, press the military in Pakistan to 
relinquish these advancements, as was done in Indonesia? I 
personally pressed the Indonesians on this with regard to 
their, sort of, involvement--their military's involvement in 
business ventures. What's going on with regard to Pakistan?
    Secretary Burns. Well, Senator, I can tell you this, our 
focus with the Pakistani military is on their fighting and 
counterterrorism capability. I don't know, personally, to what 
degree we've addressed this issue, which you often see in 
developing countries, of state organizations, including 
militaries, being involved in commercial enterprises. I can get 
back to you. I think it's a fair question, and I'll be happy to 
provide a written answer.

    [The information referred to above follows:]

    Secretary Burns. We have seen media and other academic reports that 
Pakistan's military is involved in numerous business ventures. We 
believe a nation's military forces should focus attention on security 
affairs, especially countering the threat of terrorism and violent 
extremism. Our International Military Education and Training (IMET) 
program in Pakistan is one very effective way in which we help to 
inculcate professional military values and behavior in the Pakistani 
security forces. Renewed in October 2001, Pakistan's IMET program has 
increased opportunities for military-to-military professional contact, 
improved interoperability/technical capabilities, and enhanced respect 
for civilian rule. IMET courses focus on professionalism and expose 
Pakistani personnel to U.S. values, military doctrine, and management 
as well as human rights and the law of war.

    Senator Feingold. Thank you, sir.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Feingold follows:]

              Prepared Statement of Senator Russ Feingold

    Under Secretary Burns--thank for coming before this committee today 
to discuss Pakistan. As we were reminded in the recently declassified 
National Intelligence Estimate, Pakistan is vital to our fight against 
al Qaeda.
    In the few minutes I have, I would like to express my concerns 
about the ability of al Qaeda to continue to thrive in Pakistan. It has 
been almost six years since al Qaeda attacked the United States, and I 
am deeply disturbed that the National Intelligence Estimate indicates 
that al Qaeda has strengthened its capabilities. Mr. Burns, as you 
know, Pakistan has received $3.4 billion in direct U.S. assistance 
between fiscal years 2002 and 2006, which includes nearly $1.5 billion 
in security-related aid. Pakistan also has received nearly $5 billion 
in reimbursements for its support of U.S.-led counterterrorism 
operations since 2001--and yet al Qaeda has reconstituted its strength 
in the protected safe havens of Pakistan's border region. I can only 
ask what so many Americans are asking--why have we failed to reduce the 
al Qaeda threat? What are we doing wrong? And what are we doing about 
it?
    The latest NIE only reinforces my--and many of my colleagues'--
belief that this administration has failed to focus on the true threats 
to our national security, and in particular the threat posed by al 
Qaeda. If Pakistan is our ally in this fight, why have we not yet 
gotten at the root of his problem which so directly impacts our 
national security.
    I understand the porous borders and weak governing structure of the 
Federally Administered Tribal Areas are a challenge to the government 
of Pakistan and to counterterrorism operations in general. But, I would 
hope that six years and billions of dollars invested would have led to 
greater improvement in regional security and stability and, at the very 
least, a significant decrease in al Qaeda's capacity.
    Adding to my concerns about a strengthened al Qaeda is the fragile 
political state in which we find Pakistan right now. As part of our 
efforts to combat extremism and terrorism, we should be stressing, not 
sacrificing, our support for strong democratic principles and I am 
concerned that we may have abandoned that effort long ago in Pakistan. 
Promoting democracy overseas helps, not hinders, efforts to promote 
greater security. While al Qaeda has strengthened in its safe haven, we 
have watched political and religious upheaval grow across Pakistan. We 
need to support the tenets of democracy and rule of law in Pakistan 
just as much as we support security and counter-terrorism initiatives. 
If we are to truly protect our own national interests, we must commit 
ourselves to eliminating corruption, poor governance, endemic poverty, 
and the historic marginalization that has allowed terrorist and other 
threats to fester.
    Thank you again for your testimony today, Under Secretary Burns. I 
look forward to hearing your thoughts and insight on how we can best 
work with Pakistan to effectively address al Qaeda while encouraging 
efforts to make it a fully functioning democracy.


    Senator Kerry. Thank you, Senator Feingold.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Welcome, Secretary Burns.
    What is your assessment of Pakistan's relationship with 
Iran?
    Secretary Burns. My judgment, Senator, is that they don't 
have an extremely close relationship, but they have a 
relationship: Diplomatic and economic. And one of the issues 
that's arisen, quite recently, is this prospective natural-gas 
pipeline that will unit Iran with India and Pakistan. And we've 
made it very clear to the Indian Government, as well as the 
Pakistani Government, that, given the fact that Iran is, in 
effect, an outlaw state, in terms of its nuclear weapons 
program, we would hope, very much, that that gas pipeline deal 
would not be consummated.
    And so, Pakistan seems to have the type of relationship 
that lots of the neighboring countries have with Iran, and have 
had for a long time, that lots of our European allies have 
had--diplomatic, commercial. But our whole approach--with the 
Pakistanis, with the Europeans, with the Indians--is to say 
Iran is not a country that can be trusted, and we would prefer 
to see that relationship cut down quite dramatically.
    Senator Hagel. Have we worked with, or through, Pakistan, 
in any way, regarding Iran?
    Secretary Burns. We have certainly been in touch with the 
Pakistani Government about what we're trying to do to limit 
Iran--to prevent Iran from becoming a nuclear weapons power. 
We've also talked to the Pakistanis--we have a strategic dialog 
with Pakistan--and, in the last meeting that I held with 
Foreign Secretary Riaz Khan, we had a long conversation about 
Iran, both about the regional dimension of Iran's funding of 
terrorist groups in the Middle East, but also about the nuclear 
program. And we've had the same type of discussion, by the way, 
with India, just last week, when the India Foreign Secretary 
was here.
    Senator Hagel. Well, in light of our second engagement with 
Iran, as of yesterday, I would ask you: Do we consult with 
Pakistan on those kinds of diplomatic initiatives?
    Secretary Burns. We're beginning to. I think, for a while 
there after 9/11, our relationship pretty much was focused on 
the counterterrorism struggle and on Afghanistan, but Secretary 
Negroponte--my colleague John Negroponte, the Deputy 
Secretary--was in Islamabad, and had some broader-range 
consultations. I did, as well, during my last two visits to 
Islamabad. And we are inviting the Pakistanis into that kind of 
a regional dialogue, yes.
    Senator Hagel. You mentioned, as has been mentioned here 
this afternoon, the impending Presidential and parliamentary 
elections in Pakistan. And if my information is correct, the 
Presidential election is slated for October----
    Secretary Burns. Yes, two elections----
    Senator Hagel [continuing]. Parliamentary----
    Ambassador Burns [continuing]. Between now and January, 
Presidential and parliamentary.
    Senator Hagel. If that's the case, then we are about 3 
months away, from the end of October. What preparations are you 
aware of that are ongoing for a Presidential election in 
Pakistan? Are they proceeding, printing ballots, like a normal 
democratic election? Ninety days away is not a long time, as 
you know.
    Secretary Burns. That's right. It's my understanding that 
they are proceeding toward elections. I said, in my prepared 
testimony, that President Musharraf has pledged, rather 
consistently, to uphold both Pakistani constitutional standards 
and to meet normal international standards. And we would expect 
that that would happen. We hope very much that that will 
happen.
    Senator Hagel. Is there, for example, a slate of 
Presidential candidates 90 days out?
    Secretary Burns. Well, there are certainly a number of 
politicians and political parties who want to contest the 
elections. And----
    Senator Hagel. Can you name two or three primary 
candidates----
    Secretary Burns. Well, I----
    Senator Hagel [continuing]. For president?
    Secretary Burns. You know, the People's Party, of course, 
is in--this is the party of Benazir Bhutto. She is not in 
Pakistan, as you know; she lives outside of Pakistan. But her 
party is there. The party of Nawaz Sharif is there. There are a 
number of--four or five major political parties in Pakistan 
itself. Now, we'll have to watch and see how these elections 
are conducted and the degree to which these parties can 
mobilize their supporters and----
    Senator Hagel. Is their presence required--like, Ms. 
Bhutto, would she have to physically be in Pakistan to stand 
for election?
    Secretary Burns. I don't believe that their presence is 
mandatory. It's their choice, obviously, and they'll--as to 
whether or not they would seek to be present for the elections.
    Senator Hagel. Is there active campaigning going on in 
Pakistan today?
    Secretary Burns. I believe there is campaigning going on, 
yes. I will not--I would not want to assert that the 
environment is, say, the environment you'd find in the United 
States of America, with all the debates that you--we see on the 
television, with the Republican and Democratic candidates, and 
so on. It's not that kind of environment. It's an environment 
where obviously there have been limitations on the democratic 
rights of some of the political parties and of individuals. And 
what I tried to say in my testimony today, what we have tried 
to say consistently, is that we believe it's a standard that 
should be met, and the United States, of course, should always 
voice support for such standards.
    Senator Hagel. What kind of limitations on candidates and 
campaigns, as you have just noted?
    Secretary Burns. I'm not actually the best person to answer 
that question right now. I don't have immediate knowledge. I 
couldn't tell you specific immediate limitations that are being 
imposed right now. But I can certainly take that question and 
give you a written answer.

    [The information referred to above follows:]

    Secretary Burns.  According to the Election Commission of Pakistan, 
and Pakistani citizen not less than 25 years old (in the case of 
National and Provincial Assemblies) or not less than 30 years old (in 
the case of the Senate) or not less than 45 years old (in the case of 
the President), who is of good moral character, with a good education, 
who has not defamed the armed forces or judiciary, and has not 
defaulted on debts or utility fees may contest for parliamentary 
elections. In addition to these qualification, candidates for President 
must also be Muslim and qualified to be elected as a Member of the 
National Assembly.
    President Musharraf amended the Political Parties Act in August 
2000 to bar any person from a third term as minister. This would make 
two leaders of prominent opposition parties, Benazir Bhutto and Nawaz 
Sharif, ineligible for appointment to the post even if their parties 
were to gain a majority of the seats in parliament.
    The Political Parties Act was further amended in August 2001 to bar 
anyone with a court conviction from holding party office. The amendment 
created obstacles to the political futures of both Bhutto and Sharif 
since both have been convicted of corruption.
    Under Pakistani law, the Tribal Areas are excluded from the 
legislative regime in force throughout the rest of Pakistan. Instead, 
the Tribal Areas are governed primarily through the 1901 Frontier 
Crimes Regulation, a procedural law distinct from the criminal and 
civil codes operative elsewhere in Pakistan, which states that no 
political party can legally campaign or operate an office there. 
Therefore, political parties are not allowed to operate within the 
Tribal Areas.

    Senator Hagel. Well, it just--it seems to me, if you have a 
presidential election in a large country like Pakistan, 90 days 
away, there would be some kind of activity that would be 
indicative of preparation for a new administration.
    Secretary Burns. Yes, and I said, Senator Hagel, that the 
United States--our Government is supplying technical advice and 
assistance to help support the organization of the elections, 
and we're working with some other international organizations 
and with NGOs. So, we'll continue that. So, we're front and 
center in arguing that there should be democratic elections. I 
just can't give you some of the specific granularity, myself, 
that you are looking for.
    Senator Hagel. Well, you see, your last point--and I know 
you can't control this, but, when you just said--you're arguing 
strenuously that there should be elections. Does that imply 
that there is some question whether there will be elections?
    Secretary Burns. Oh, I think there's--I don't think there's 
any question about the fact that there will be elections. The 
question will be: Will these elections, the day after--and 
this--we have this question with any election in a foreign 
country like this--be democratic? Will it meet a free-and-fair 
standard? And so, we're working to support that eventuality. 
But, obviously, given the environment of the last 7 or 8 years, 
with the original coup in Pakistan, with the departure of at 
least two of the prominent political party leaders--Nawaz 
Sharif and Benazir Bhutto--there has been a question about what 
road the Pakistani Government and people would take, under what 
conditions would elections be contested, sure. And we've spoken 
out about that, and will continue to do that.
    Senator Hagel. Do you believe there will be Presidential 
elections----
    Secretary Burns. We----
    Senator Hagel [continuing]. By October?
    Ambassador Burns [continuing]. Hope very much there'll be 
a--we have every understanding that there will be, yes.
    Senator Hagel. You--but do you believe there will be? Do 
you----
    Secretary Burns. I think----
    Senator Hagel. Can you tell this committee that you believe 
there will be elections held by October?
    Secretary Burns. It would be my judgment that you will see 
Presidential and parliamentary elections. We certainly hope so.
    Senator Hagel. But----
    Secretary Burns. And we see no reason why that--the 
government would change and decide not to hold those elections.
    Senator Hagel. Thank you.
    Senator Kerry. Thank you, Senator Hagel.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Secretary, you said, in your statement, that Pakistan 
is the most indispensable partner that we have. It's also one 
of the largest recipients of U.S. aid. And, in that respect, it 
has received more than $3 billion over the last 5 years in 
direct assistance, and about another $6 billion in coalition 
support funds. And so, I look at what we have--at the record, 
after $10 billion of support, in money and years, and I look at 
the 2007 failed-states index that lists Pakistan among the 15 
most unstable countries in the world. I look at the State 
Department's Country Report on Human Rights practices in 2006, 
that again determined that the Pakistani Government's record on 
human rights remained poor, that Pakistan remains a safe haven 
for the Taliban. And, as we all know, the recent National 
Intelligence Estimate verified that al-Qaeda is operating in a 
safe zone along the Pakistan-Afghanistan border, at September 
11th strength. And then, we look at that National Intelligence 
Estimate that tells us that, in fact, al-Qaeda is the single 
greatest threat to American security. And so, I listen to you 
say, $10 billion later, greater anti-American sentiment, and a 
Musharraf government that either turns a blind eye or acts more 
in containment than in trying to put al-Qaeda out of business, 
to the one entity that is the No. 1 threat to our country as 
they train in that border line between Afghanistan and 
Pakistan. I don't think that that's sustainable anymore. I 
don't think that's sustainable anymore.
    And I want to talk with you, specifically, in that context, 
as you comment on that, you know, since October 2001 we have 
been providing Pakistan with large sums of money as 
reimbursement for Pakistan's fight against terrorism. According 
to the Congressional Research Service, this money, which is 
distributed from the coalition support funds, has provided 
Pakistan with an average of $80 million a month, on top of the 
direct assistance that they receive from the United States--
that's about $6 billion, to date. I've heard estimates that 
this money may account for more than a quarter of Pakistan's 
defense budget. And despite this vast quantity of money, there 
is virtually no oversight or transparency in the disbursements 
of these funds.
    So, my question is: Could you provide details on the 
oversight that currently exists? How how are we, as a 
government, ensuring that this money, being given to the 
Pakistani Government, is being used for legitimate purposes? 
I'm alarmed, as I already heard the questions from my colleague 
Senator Feingold about all of these private enterprises by the 
Pakistani military. We're giving them $80 million a month. 
We've given them nearly $6 billion over this period of time. I 
mean, what are our receipts to show that this work that we are 
funding is within the lines of what we meant for it to happen?
    Secretary Burns. Thank you very much.
    This effort, since September 11, 2001, has been 
extraordinarily expensive. I don't disagree with you at all. 
This effort to try to work with the Pakistanis, have them work 
with us effectively in the fight against al-Qaeda and the 
Taliban, militarily, but also the money that we've spent to try 
to help them economically, it's an expensive proposition. And 
you're--you have, obviously, an obvious right to ask the 
question, ``So, what are we getting in return for it?''
    We have a country that is, without any question, the most 
indispensable country in the fight against al-Qaeda, by virtue 
of the fact of where it's located and where al-Qaeda is 
located, and by the opportunity to do something about that.
    Now, what I've tried to indicate in my testimony today is 
that we don't question President Musharraf's commitment. I 
mean, this is the guy who has nearly been killed several times 
by terrorist forces. He has 100,000 troops on the border, and 
he's lost 600 troops in the fight against al-Qaeda alone. So, 
the commitment is there. The question is: Can we work with the 
Pakistani Government to help them fashion a more effective 
strategy? And I would say to you, quite honestly, there needs 
to be a stronger and more effective effort in the fight against 
al-Qaeda.
    Is there transparency and oversight? In terms of the 
military assistance that we give to any country, including 
Pakistan, we do spend--the Pentagon spends a lot of time in 
end-use certification and in oversight, and employ a lot of 
people to do that. And I'm--be happy to get you the necessary 
information to answer that question, from the Pentagon.

    [The information referred to above follows:]

    Secretary Burns. We are committed to ensuring that monetary 
assistance the USG gives Pakistan is used for the purpose for which it 
was intended. All assistance funds are subject to standard USG controls 
and audit requirements. Monies used for grants, projects, and 
procurements are subject to U.S. Agency for International Development 
audit requirements. Funds used under NADR and INCLE programs are also 
subject to the standard controls and end use agreements, and are 
monitored accordingly. Money obligated under the Strategic Objective 
agreements negotiated with the Government of Pakistan is provided to 
the Government of Pakistan, and results are measured through a variety 
of measures, rather than by tracing funds. In the case of all DRL 
programs in Pakistan, monies pass through U.S. partner grantees and 
non-governemental organizations who submit regular quarterly and 
financial reports. We maintain clear, established controls and 
financial records for this portion of our assistance program.

    Secretary Burns. In terms of the economic, educational, 
humanitarian programs that we're running, with the support of 
the Congress, of course we have oversight and transparency 
through USAID and through our Embassy in Islamabad, and we work 
hard to achieve that.
    Senator Menendez. Well, Mr. Secretary the difficulty is, I 
think the average American would look and say, $10 billion 
later, and we have a reconstituted al-Qaeda, at September 11th 
strength, we have President Musharraf looking--I think we'll 
hear other testimony, later today, of those who will say that 
he's basically looking at--with a blind eye, to some degree, 
that what we're doing here is containment, versus putting these 
entities out of business. And yet, we are told, by the National 
Intelligence Estimate, this is the single most significant 
threat to us. So, I can't understand how $6 billion directly in 
military funding creates a reconstituted al-Qaeda, with very 
little effective action, at the end of the day, and rising 
anti-Americanism, $10 billion later. It's just very difficult 
to understand. And now the administration comes and asks for 
more money into tribal areas. I mean, at the end of the day, 
you have to give us a plan here that works. It's not just about 
working with Musharraf, which I'm all for, but results matter. 
And a reconstituted al-Qaeda and a Taliban that is growing in 
strength is not, in my mind, a plan that works.
    Secretary Burns. Well, Senator, I'd say to you that we 
don't have an option here about whether or not to work with 
President Musharraf. He is a friend of the United States. His 
government is a partner with our country. They collaborate on 
military strategy with us. And if the option is walking away 
from that government and not spending the money, I don't think 
that's an appropriate----
    Senator Menendez. Our option is to make----
    Ambassador Burns [continuing]. Policy----
    Senator Menendez [continuing]. It more----
    Ambassador Burns [continuing]. When al-Qaeda is the 
greatest threat to our country.
    Senator Menendez. Our option is to make it more effective, 
and you----
    Secretary Burns. And that's been the----
    Senator Menendez [continuing]. Can't keep coming----
    Ambassador Burns [continuing]. Thrust of my testimony----
    Senator Menendez [continuing]. To the Congress and ask for 
billions more, to achieve the same results. That's my point.
    Secretary Burns. It's--and that's a fair point. And I would 
just say, Senator, if I could just respond, very quickly to 
your good question, we're trying very hard to work with the 
Pakistanis to fashion an improvement in the strategic and 
tactics, because we would acknowledge that, at--if al-Qaeda has 
reconstituted itself, or found a refuge, if the Taliban are in 
Pakistan in greater numbers, we're not satisfied with that 
situation. We have to have it--see it change. But working with 
the Pakistanis and continuing to commit to a close military and 
economic relationship is the way to do it. I fear that, if we 
walked away or didn't pay attention to the nonmilitary side of 
the fight against terrorism, it wouldn't work for us, long 
term.
    Senator Menendez. I'm not----
    Secretary Burns. It wouldn't be a successful policy.
    Senator Menendez. I don't want to overstay my time. I'm not 
suggesting that, Mr. Secretary. But pouring more money down, 
for the same results, is also not acceptable. It's not a blank 
check for a failed policy. It's a check that ultimately has to 
lead to a different success. I'll look forward to the responses 
on the coalition support funds and how those were distributed.
    Thank you.
    Senator Kerry. Thank you, Senator Menendez. Thank you.
    Senator Isakson.
    Senator Isakson. Thank you very much, Mr. Secretary. Two 
days in a row. It's been a pleasure to see you. I'm sorry I 
missed some of your remarks following up on the response and 
the question of Senator Menendez.
    I am correct that Musharraf's effort now on the border with 
Afghanistan in the tribal areas is the most significant, 
militarily, since all this began, September 2001. Is that 
correct?
    Secretary Burns. Whether it's the most significant in 
number of troops, I don't know, but, I think, in intensity, it 
is. We've never seen----
    Senator Isakson. Yeah.
    Ambassador Burns [continuing]. I think, the intensity of 
exchange that we've seen over the last several weeks. So, they 
are taking on the militant groups.
    Senator Isakson. That's my perception. And, second, and 
this is my perception--I could be wrong, and I'm sure you'll 
correct me--but the real problem with that area, historically, 
has been, in the history of this war with terror, or war on 
terror, they hop back and forth, depending on where the 
pressure is coming from. ``They,'' being the bad buys, whether 
they be Taliban or whether they be al-Qaeda. If we do have the 
most significant intensity of pressure from the Pakistani side, 
are we putting the proportionate pressure on the Afghan side to 
narrow the gap?
    Secretary Burns. Yeah. Yes, we are, Senator. In fact, you 
know, there was a lot of talk, at the turn of this year, that 
the Taliban would launch a spring offensive. And, as Secretary 
Gates put it, we launched the offensive before they could. NATO 
launched a major military offensive, as you remember, in 
February and March. We have taken--the NATO forces have taken 
the battle in the east and in the south and in Kandahar, 
Oruzman, and Helmand provinces, to the Taliban. They've done 
very well. But the Taliban's strong, and they continue to come 
across the border. And we can expect that's going to continue.
    So, you're very right to assert you need to have an 
effective strategy from both sides of the border. We've often 
not had that. And we're trying to arrive at a situation where 
a--where that happens.
    Senator Isakson. And that effectiveness requires the word 
``coordination''----
    Secretary Burns. Yes, it does.
    Senator Isakson [continuing]. In my judgment. Are we 
getting any indication that that coordination is, in fact, 
taking place, with the Pakistani military?
    Secretary Burns. Well, I can say one thing for sure. In my 
visits to Afghanistan, I've always gone out and seen the U.S. 
military in action, and they're doing a first-rate job, our 
people. We are not satisfied at the degree of cooperation and 
coordination between the Pakistani and Afghan governments. I, 
in an earlier question by Senator Kerry, referred to President 
Bush's personal efforts to bring the two leaders together, but 
also to see this tripartite military cooperation among the 
United States, Pakistan, and Afghanistan--we can--I think it's 
fair to say we all believe that that can be improved, and we 
need to keep our eyes focused on that.
    Senator Isakson. With regard--Senator Lugar may have asked 
this, I believe--I heard A.Q. Khan come up, so he may have 
asked this. If he did, I apologize. But I understand we, and 
other countries' investigators, have little or no investigatory 
access to that network or any remnants. Is that correct?
    Secretary Burns. That's also my understanding, that we have 
not had personal access to him, to A.Q. Khan. But we obviously 
have told the Pakistani Government that it is its 
responsibility to sequester A.Q. Khan, his network, to 
dismantle it, and to make sure that it, or a similar 
organization, is not created again in Pakistan. It did enormous 
damage. And to Pakistan's reputation, it did enormous damage.
    Senator Isakson. I think you just answered my followup 
question, but, just to be sure, I'll ask it. Do you have reason 
to believe that the remnants of that network of nuclear 
proliferation still exist?
    Secretary Burns. That's a very good question. I cannot 
assert that no part of that network exists, but it's my 
understanding, based on our conversations with the Pakistanis, 
that the network has been fundamentally dismantled. But, to say 
that there are no elements in Pakistan, I'm not sure I could 
say that. And I--if you'd like, I could take that question and 
try to get you a more detailed answer, maybe in a classified 
basis.
    Senator Isakson. It's probably the most concerning thing to 
me, in terms of weapons-of-mass-destruction capabilities 
getting into bad people's hands relatively easily, if you have 
that type of network existing.
    I guess my last point would be--you had mentioned President 
Musharraf wanted $750 million in aid, and that was for the 
economic and educational programs in the border area, is that 
right?
    Secretary Burns. Yes. When President Bush visited, in March 
2006, President Musharraf said that he felt that, in the long-
term battle to deprive al-Qaeda and Taliban of sanctuaries in 
the tribal areas, that the Pakistani Government needed help in 
trying to help convince young people not to join these 
organizations. So, job creation activities, infrastructure, 
health programs, educational programs, he thought, over the 
long term--and he didn't predict short-term progress--would be 
essential.
    Senator Isakson. I want----
    Secretary Burns. And so, we are prepared--you know, we've 
come to the Congress with a proposal for that.
    Senator Isakson. I want to just comment. I had the 
opportunity, post-9/11, to go into Ethiopia and Egypt, with 
NGOs and State Department representatives, to make sure that 
United States aid for educational and economic purposes was, in 
fact, being distributed to make the right influences. For 
example, we learned that, in Egypt, they weren't letting young 
girls go to school, or the money to be used for schools where 
young women could go, and things of that nature. So, I think 
it's very important in that. I am a supporter of that, because 
you can win hearts and minds. It's difficult if the Taliban has 
an equal license. But I'm assuming we're going to continue to 
dissipate that. But it's very important that we make sure, when 
it goes into education, that we know the education it is going 
into, and it is, in fact, the liberating type of enriched 
knowledge that we'd like folks to have.
    I would--because I would point out, Mr. Chairman, Ethiopia 
was our big friend, here recently, in Africa, really--and 10 
years ago, that would not have been the case. But the--that 
effort in Ethiopia has paid off, I think, big time, for the 
United States and our relationship, and hopefully it would be a 
part, in concert with the military cooperation with American 
forces and Pakistani forces, to clean that area up, or begin to 
turn the corner in that border area.
    Secretary Burns. I very much agree. In fact, both--in 
Afghanistan, we do a lot of education work, and Pakistan. We 
pay attention to the curriculum and what's being taught. And in 
Pakistan, of course, we have welcomed to the State Department 
Mukhtar Mai, who's been a campaigner for women's rights in 
Pakistan. In fact, we're helping to fund NGOs in Pakistan that 
stand up for women's rights in the country.
    Could I just say--I want to make sure I was fully 
understood on your question about illicit A.Q. Khan-type 
networks. I meant, of course, to say that these would be 
private. I don't--I didn't mean to assert that the government 
would have anything to do with them. But I can't be sure----
    Senator Isakson. I did not take that----
    Ambassador Burns [continuing]. I cannot be sure that there 
are no private groups in Pakistan trying to reconstitute that 
type of capability.
    Senator Isakson. That's the way I understood your answer.
    Secretary Burns. Thank you.
    Senator Isakson. Thank you, sir.
    Senator Kerry. Thank you, Senator Isakson.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    And, Secretary Burns, once again I thank you very much for 
your service and what you're doing for our country. You're 
making a very important contribution, and we thank you for 
that.
    And you made a very convincing point about the importance 
of Pakistan in our fight against al-Qaeda, and the importance 
of Pakistan in that region, and our relationship with Musharraf 
government. And--but let me just make an observation. 
Historically, when we support governments that are moving in 
the wrong direction on democratic reform, or who are not 
protecting the rights of the people in their own country, and 
the human rights records deteriorate, that, over the long term, 
that's not in our interest. And I'm just concerned whether the 
current government in Pakistan is facilitating or is an 
impediment to democratic reform, and to protecting the human 
rights of its citizens. And I want to get your observations of 
whether it's moving in the right direction or wrong direction. 
We all talk about these elections. And obviously that's the 
immediate concern. But it seems to me that--you look at what 
happened with the--what he tried it with--the government tried 
to do with the courts, look at what's happening in many other 
areas--that the country is moving in the wrong direction. And 
what impact does that have on the--beyond just today, with the 
relationship between us and Pakistan?
    Secretary Burns. Well, I think, Senator, it's a fair 
question. It's been a major concern in our foreign policy over 
40-50 years, have dealt, throughout the cold war, with this 
same issue, in many parts of the world.
    I think that there are two recent indications that the 
Pakistanis may be heading in a better direction, if they can be 
sustained. The first is the Supreme Court decision to reinstate 
the Chief Justice. Now, the Government of Pakistan, the 
President and Prime Minister, have both said that they will 
abide by it. We have said, publicly, we think this is a 
positive development, because it's a triumph for the rule of 
law, and that we do want to see a strong, independent judiciary 
in Pakistan. So, we'll have to see how this plays out. But we 
would hope that that court decision would be respected and that 
this would be something that the government and judiciary would 
then have to deal with together to learn to exist together.
    Second would be the elections. And, while I don't have a 
crystal ball, and I cannot now say that the election is going 
to meet all standards that we would want it to meet, but we 
hope it will and we're arguing for that, and we're voicing that 
sentiment, and we're putting our money behind helping to 
organize the elections, you know, in technical assistance to 
the election process itself.
    And I think those are two issues that are guideposts, and 
we need to watch them, but we also need to encourage the people 
of Pakistan and the Government of Pakistan to follow a positive 
evolution, both in terms of the law, as well as in terms of 
politics.
    Senator Cardin. Well, I agree with you on the elections. 
That's coming up soon. I think it is a critical time for 
Pakistan. And I encourage you to be as aggressive as you can, 
and be as honest in your assessment as to whether it's a free 
and open, fair election process that's used. We need to be 
pretty direct about that, and not be influenced by any other 
factor than whether it's a free and fair election.
    I want to get to the Pakistan-India relationship for one 
moment. We've been talking about that for many, many, many 
years. You talked about that there is conversation taking place 
between the two countries and their leaders, and that there is, 
at times, some progress that is being made. How would you judge 
progress? What are we looking for? What are we trying to 
achieve in improving the relationship between those two 
countries?
    Secretary Burns. I think we have to judge it against the 
standard of 1998 and 2001. You remember, there were times when 
it seemed that India and Pakistan, both during the Clinton 
administration and during the early years of this Bush 
administration, were on the brink of a conflict. They're 
nuclear-armed. Nothing could be worse for the people of the two 
countries, and for the world.
    Since then, I think you've begun to see--and what I would 
look for is an element of trust beginning to develop between 
the highest-level leaders on both sides, President Musharraf, 
Prime Minister Singh, their Foreign Ministers, and their 
Foreign Secretaries. And they've formed this composite dialog. 
It's an Indo-Pak dialog of the Foreign Secretaries. And they do 
get together very consistently, they work through their 
bilateral differences. They work on the very difficult issue of 
Kashmir. And they're also trying to break down the barriers 
that have separated the peoples in the border regions for a 
long, long time--by the bus routes, that have been enabled 
relatives to visit each other for the first time in many years, 
for instance. So, there's a little bit of hope.
    We've been encouraged by it. It doesn't mean that they've 
arrived at a state of full understanding or partnership or 
friendship. I think they're not there yet. But we've been 
encouraged by this, and we are, along with some other 
countries, very much supporting it in our private discussions 
with both sides. Secretary Rice has done that. I've done it, at 
my level, with my counterparts who are involved in this dialog. 
And it's in our interest, because, I would say, if you're 
looking at the future of American foreign policy, we now have 
vital interests in South Asia that we did not have before. We 
need to have full strategic relations with both Pakistan and 
India. And we don't need to have a relationship with Pakistan, 
``hyphen,'' India, as we did for so long, and balance 
everything minutely. We can have a relationship with India, 
which is going to look very different, and be different, than 
the relationship with Pakistan, but both of them will be 
important.
    Their ability to resolve their bilateral differences will 
help us, and help them, to create much more stability and peace 
in the region. So, I think the stakes are very high, and the 
progress is good. But they need to go a lot farther to 
consummate this process.
    Senator Cardin. How important it is--is it for the United 
States to be actively involved in trying to get progress 
between those two countries, as--I take it, it's going to be 
difficult for the two countries, on their own, to make the type 
of progress that many of us would like to see. How important is 
it for the United States? And you mentioned some other 
countries. What other countries are important in trying to make 
progress in this area?
    Secretary Burns. Well, I think it's certainly in our 
interest to say to both countries, ``If we can be helpful, 
please let us be helpful''--and I think there have been ways 
when we have been helpful--and to assert that this is a very 
critical stage for them, and, if they get this relationship 
right between each other, it will unlock a lot of very positive 
developments for both of them and--as well as for us.
    I also would say this, that these are proud countries, and 
the issue of Kashmir is especially sensitive. And so, we've 
been very careful not to assert ourself as a mediator. I don't 
think they--they don't want that. I think they want private 
encouragement. We have a certain credibility in India, as well 
as in Pakistan, and we should--and we can use that influence 
quietly, but we don't need to be--and I don't think either side 
wants us to be--a formal mediator in this process.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Kerry. Thank you very much, Senator.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman. Thank you for 
calling this hearing.
    Senator Kerry. Let me just remind everybody, we do have a 
panel of three, to follow this, so we want to try to get 
through there.
    Thanks.
    Senator Casey. Thank you very much.
    And, Secretary Burns, thank you for your service, in 
particularly difficult times, in difficult and sensitive 
matters that you have to deal with.
    I wanted to ask a couple of questions about the A.Q. Khan 
network. We--which we, I guess, charitably refer to as a 
proliferation network, which is pretty scary to even 
contemplate. First of all, just a couple of basic questions. It 
operated out of Islamabad, is that correct?
    Secretary Burns. It operated out of Pakistan, yes. I think, 
various parts of Pakistan.
    Senator Casey. Various parts of the country.
    Secretary Burns. As far as I understand, yes.
    Senator Casey. And isn't it true, it sold sensitive nuclear 
technology to Iran?
    Secretary Burns. Well, there is, I think, a great deal of 
evidence that it sold technology to a great number of states 
and actors, yes, on the black market.
    Senator Casey. But Iran would be one of them? Are you 
confident in that assertion, or----
    Secretary Burns. I would be, yes.
    Senator Casey. How about North Korea? The same?
    Secretary Burns. Well, I think there's a lot of evidence to 
indicate that there was a relationship there, as well, yes. I'm 
being a little bit hesitant, for one reason. I was not working 
on this issue during the time that the A.Q. Khan network was 
unveiled. And so, I don't have a perfect recollection of how it 
was taken down and of all of its tributaries. So, I would be 
very happy to give you a written answer to these questions, but 
obviously, yes, the A.Q. Khan network was involved with both of 
those countries, and with others, as well.


    [The information provided to the committee in response to 
Senator Casey's question is classified.]

    Senator Casey. And with others. And I just think it's 
important, for the record, to establish that. And I guess 
there's no--and you've been asked, by a couple of members of 
this committee, about where we are now with regard to that. Is 
it your understanding, right now--you used the word, before, I 
think, in reference to--I think it was Senator Isakson's 
question--that it's your understanding now that A.Q. Khan is 
``dismantled.'' Is that the word--I think that's the word you 
used. That's our understanding--our Government's understanding?
    Secretary Burns. When his--when the network was revealed, 
made known to us, we demanded that the network be completely 
dismantled. We, of course, follow up regularly with the 
Pakistani Government to ensure that that remains the case. I'm 
not aware that we've had substantial access to him, and I am 
aware that he currently lives in Pakistan, under some form of 
house arrest, a general--I've used that general term, but I'm 
not aware of the specifics of his existence and his 
relationship to the law enforcement authorities there.
    Senator Casey. And you said, before, I believe, that you 
insisted, or you told--or, I mean, our Government has indicated 
to the Pakistani Government that it's their responsibility to 
fully shut him down and shut the network down. When we demand 
that--and I'd like to ask you about how we enforce that, or how 
we, as you said, follow up on it--what's the basis for their 
continuing refusal--Pakistan's refusal to give the United 
States, or any international investigators, access to the 
network? What do they say? In other words, when we demand some 
kind of access or we pursue that.
    Secretary Burns. First, you're quite right that we have 
made it a point to tell the Pakistani Government it's their 
responsibility to have fully dismantled the network, and to 
keep it dismantled, and any similar network. Their 
responsibility. They have asserted to us that they accept that 
responsibility, and that, therefore, as I understand it, we 
haven't had the type of personal, consistent access that 
otherwise might have been--would have been of interest to us.
    But, again, I don't have all the details of everything 
we've done, and some of it may be better conveyed to you in 
classified form, as well.
    Senator Casey. Well, I'd appreciate that. And I'm sure the 
record--the committee would, in the record, would be--it would 
be helpful for the record.
    I guess part of what I'm asking is, to use an old phrase--I 
think it President Reagan used--how do we ``trust, but 
verify,'' here? And what are the mechanics of that, or the 
steps that we have to walk through to get that done?
    Secretary Burns. Well, we have to have the type of 
relationship with Pakistan that there has to be transparency in 
this issue, in our private discussions with them, and a degree 
of access, in terms of our being able to ask questions and get 
answers that are credible, because there is nothing more 
important than containing nuclear fissile material or nuclear 
technology that can help other countries, irresponsible 
countries, develop nuclear arsenals. So, I can assure you that 
we take this very seriously. We're actively involved in it. 
But, again, I'd like--I think most of this should be done, in 
terms of conveying information to you, on a classified basis.
    Senator Casey. And the last question on this pertains to 
timing. If you know--and if you don't know, if you're able to 
supplement the record--when was the last time our Government 
had an engagement or a conversation or a discussion about this, 
even if it's--obviously, if it's classified, you can't talk 
about it, but are you aware of any engagement recently--say, in 
the last 6 months?
    Secretary Burns. I will get you an answer on that--to that 
question.
    Thank you.


    [The information provided to the committee in response to 
Senator Casey's question is classified.]

    Senator Casey. All right.
    I don't have much time left. I want to keep within the 
chairman's rules, and the rules of the committee.
    I guess, one final question I have--and it--we don't have 
enough time, but I want--I was looking at page four of your 
testimony, and I was just underlining the following references. 
And I'm reading--I'm just reading portions of sentences. But we 
say--or, you're saying, on page four, we would, quote, 
``frankly, like Pakistan to do even more.'' At one point, you 
say, ``Pakistan will have to find a more effective and 
successful way to do more on the borders.'' The next paragraph, 
``We want to see''--further in that second paragraph on page 
four, ``We urge.'' And then, ``We urge,'' again.
    Now, I realize that we don't have the capacity or the 
authority to run two countries, so to speak. But how do--how is 
that going to work, going forward? When we--we know that 
there's a major problem with al-Qaeda, which we knew before the 
NIE, and we know it's even more pronounced now. When we say 
``we urge,'' ``we hope,'' ``we want,'' ``we expect,'' how do 
we--what kind of leverage do we have to go beyond that, so that 
we can actually have an assurance that they are doing 
everything possible to prevent the further spread of any kind 
of influence that al-Qaeda has? I know it's a long--it's a 
difficult question to answer, but I'd like you to speak to it, 
because I think a lot of people who read the record of this, or 
watch this, want to know what we're doing that's definitive.
    Secretary Burns. It's a very fair question. I--you know, we 
have to--we do know that President Musharraf has the same 
interests that we do, and that is to defeat the terrorist 
groups on his own soil. They've attacked him, personally. 
They've tried to kill him. They've killed a lot of his 
soldiers. They represent the greatest threat to the internal 
security of Pakistan itself.
    It was interesting to see----
    Senator Kerry. Is that al-Qaeda? Or is that radical 
internal----
    Secretary Burns. Al-Qaeda, the Taliban, and there are a few 
other radical terrorist organizations inside Pakistan that 
present a threat to the Pakistani government.
    Senator Kerry. But the ones who made attempts on his life.
    Secretary Burns. Excuse me?
    Senator Kerry. Do you have a specificity with respect to 
the attempts on his life?
    Secretary Burns. I don't have, available to me right now, a 
list of all the organizations that have tried to kill him, but 
we know that there have been attempts to do so.
    Senator Kerry. It's fair to say there are a bunch of 
organizations, outside of al-Qaeda, that have an interest in 
doing that, have been trying to, for some time.
    Secretary Burns. It's fair to say that there are other 
groups, beyond al-Qaeda, yes, exactly, that have tried to do 
that.
    And, just to try to answer your question, we don't doubt 
President Musharraf's commitment. And we don't doubt the 
commitment of his army and of many of the other leaders in the 
government. But there's no question that we have to devise a 
more effective strategy, because al-Qaeda is present, and the 
Taliban is present, as well. And so, it's our No. 1 goal in 
Pakistan and with the Pakistanis.
    I think--I was just going to say, I--it was interesting to 
see the reaction of a lot of average Pakistanis after the Red 
Mosque incident in Islamabad. In general, as I understand it, 
from reporting from our Embassy, the public reaction was very 
supportive of President Musharraf. Most Pakistanis don't want 
to see their country torn apart, they don't want to see suicide 
bombers kill innocent people. And so, I think we have that 
degree of connectivity with the Pakistani people, as well a the 
Government of Pakistan, on this fight against extremist groups, 
whether it's al-Qaeda or some of the other indigenous groups in 
Pakistan.

    [Additional information submitted by Secretary Burns 
follows:]

    Secretary Burns. Al-Qaeda and Pakistani extremists have been 
involved in past assassination attempts against Musharraf. Although the 
total number of such attempts is unclear, they include two attempts in 
December 2003, a poorly planned and executed rocket attack in October 
2006, and a badly planned and executed machine gun attack on 
Musharraf's aircraft in July 2007. For more specific details, the State 
Department can brief interested Senators and staff in a classified 
setting.

    Senator Kerry. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    And, Secretary Burns, I'd like to tell you how much I 
appreciate not only the quality of your testimony, but the care 
that you've put into your answers. These are--this is a 
volatile issue, and I think you've been very responsible, in 
terms of how you've attempted to answer these questions.
    I also want to tell you I'm going to talk really fast, 
because I only have 7 minutes, and you're at the bottom of the 
food chain, in terms of your interrogators, here.
    I couldn't help but react a little bit when Senator Hagel 
asked you about the relationship between Pakistan and Iran, 
because, when he was asking you that question, I actually was 
thinking about the relationship between Pakistan and China, and 
the fact that, if it had not been for certain elements in 
China, Pakistan would not have a nuclear capability at all. And 
I was among a number of people who were writing and warning 
about that as it occurred. And the end result is what we're 
dealing with right now. Quite frankly, there are few situations 
around the world that have the volatility and the potential for 
miscalculation as the issues in Pakistan, which is, again, why 
I appreciate the care in which you have answered your 
questions.
    There's been a lot of discussion over the past week or so 
about the possibility that the United States might enter into 
these areas along the border to conduct counterterrorism 
activities. And I think the best thing that we can do right 
now, in terms of examining the potential ramifications of that 
is, first, if you could explain to us, in short phrases, the 
nature--the political nature of these federally administrated 
tribal areas so that we can understand that, for the record, 
the issues of sovereignty between the Pakistani Government in 
these areas.
    Secretary Burns. Thank you, Senator.
    These areas have largely--well, have been not governed by 
central authority since the creation of Pakistan.
    Senator Webb. So, when we are--when we're discussing, for 
instance, elections and these sorts of things, how are they 
going to impact this area?
    Secretary Burns. I would have to--actually, I would have to 
get you a written answer on that.
    [Secretary Burns's response to Senator Webb's question 
follows:]

    Secretary Burns.  Presidential and parliamentary elections in 
Pakistan this year and early next year are not expected to 
fundamentally affect the political nature of the Fedderally 
Administered Tribal Areas (``the Tribal Areas''). Under Pakistani law, 
the Tribal Areas are excluded from the legislative regime in force 
throughout the rest of Pakisan, and no political party can legally 
campaign or operate an office there. Instead, the Tribal Areas are 
governed primarily through the 1901 Frontier Crimes Regulation, a 
procedural law distinct from the criminal and civil codes operative 
elsewhere in Pakistan. Therefore, political parties are not allowed to 
operate within the Tribal Areas. However, many secular political 
parties complained that this rule was no longer valid since religious-
based political parties have openly campaigned in the Tribal Areas. The 
long-term objective of the Pakistani government is to bring the Tribal 
Areas into the mainstream body politic of the Pakistani state. The USG 
supports the Pakistani government's comprehensive sustainable 
development plan for the Tribal Areas which seeks to bring economic and 
social development as well as effective governance to this remote 
corner of Paki9stan. We encourage Congress to support USG plans to 
contribute $750 million over five years to this plan to help render the 
Tribal Areas inhospitable to terrorists and extremist ideology.

    Senator Webb. Well, I think it's fair to say that that part 
of Pakistan are does not have a representative government, at 
this time. Is that fair to say?
    Secretary Burns. That's fair to say. There are tribal 
leaders----
    Senator Webb. Right.
    Ambassador Burns [continuing]. That have authority in the--
in these areas. And the Pakistani Government has a relationship 
with them. The army does move into the tribal areas. The 
Pakistani Government obviously extends assistance--health, 
education, job creation--to these----
    Senator Webb. Right. But, in terms of--when we're 
discussing elections and a movement toward democracy and these 
sorts of things, these are--these are, in terms of governmental 
structure, not really considered to be a part of that process. 
Is that fair, to say that?
    Secretary Burns. It is fair to say, in terms of the 
political administration----
    Senator Webb. Right.
    Ambassador Burns [continuing]. Of the----
    Senator Webb. The elections that we're talking about, and 
these sorts of things.
    Secretary Burns. But I do want to make sure that I'm 
entirely accurate in giving that answer, so I'm going to give 
you a written answer to that.


    [See Secretary Burns's response above.]

    Senator Webb. OK. But I think it's fair to assume that, in 
terms of normal issues of sovereignty, this is a gray area. And 
that creates a situation, for us, the United States, in terms 
of how to deal with international terrorist activities that are 
in this area. It's not the traditional situation of--for 
instance, the--parallel to what we had in Afghanistan, when we 
had a government that was allowing international terrorism, and 
all the trainee aspects, et cetera, to occur within its area of 
sovereignty.
    Secretary Burns. I think, Senator, it's not--in my own 
view, it's not so much a question of complications over 
sovereignty as it is over effectiveness of organization. I say 
that, because, you know, President Musharraf did agree to this 
Waziristan agreement, where he gave the tribal leaders the 
right to go ahead and organization opposition to al-Qaeda and 
others. That didn't work out. And so, now you have--the federal 
troops have moved back in to the area, because that was the 
only solution left to the government. So, I think the hardest 
strategic question is: How do you organize a military effort, 
combining with the tribal leaders, by the way, and the 
Pakistani forces, to be effective? Because I think one point 
that the Pakistani Government makes over and over to us is that 
it can't just be about the application of military force. You 
also have to have an economic strategy----
    Senator Webb. I understand all that. And you've said it 
very clearly during your testimony, that--the situation that 
I'm trying to get some understanding on here is the dilemma, in 
terms of international law and the ripple effect, actually on 
the other side, that this might have in Pakistan. On the one 
hand, I think our position has been, in international law, that 
if you either cannot--as in the case, let's say, of Hezbollah--
or will not, as in the case of Afghanistan, control 
international terrorism inside your borders, then we have the 
right, under the United Nations Charter, to defend ourselves. 
But then you have a situation, as in Pakistan, where you have 
an enormously volatile central government that is administering 
an area where it is attempting--and I want to give them credit 
for that, they are attempting to control this process--but that 
if we were to go in, that we would have the potential of 
causing a ripple effect throughout the country that could truly 
destabilize the central government.
    Secretary Burns. Yeah. And here's how we look at it. And, 
you know--as you know, my colleague Fran Townsend spoke to this 
the other day on the Sunday shows--we want to respect the 
sovereignty of the Pakistani Government. And it is sovereign 
throughout all parts of the country, in terms of 
international--its international legal character. It's 
sovereign. And we want to work with the Pakistanis. But, I 
think, you know, she was asked--and other people have been 
asked--the question, Are there any scenarios under which the 
United States might take its own action? And, when we're 
dealing with Osama bin Laden and al-Qaeda, we could foresee--we 
can foresee such scenarios. But it's always going to be our 
preference to work with Pakistan, and to prefer that as a 
course of action.
    Senator Webb. And you would agree with the potential that--
or the idea that this has the potential, if we were to do it 
wrong, by, you know, perhaps, showing that we are not 
respecting the central government's sovereignty, that we have 
the potential here of destabilizing a government that is, 
perhaps, the most volatile in--and, potentially, destabilized 
country that we have any relationships with.
    Secretary Burns. It's a very important consideration, 
you're right, that we obviously have thought of, and will 
continue to think of, because we--you know, we have put--we 
have--we've put our support behind the Pakistani Government. We 
are friends. We're partners with them. And we want to be 
respectful of them, and we don't want to complicate their 
internal politics needlessly. So, obviously, this is a 
consideration for us, in this whole set of options that you've 
drawn for us.
    Senator Webb. Well, and I would say, again--my time is up--
but that--with respect to the sovereignty issues in this 
particular country, I know of no more complicated area, in 
terms of the use of military force, potentially, for the United 
States.
    Thank you.
    Secretary Burns. Thank you.
    Senator Kerry. Thank you, Senator Webb.
    There is no question of the level of that complication, 
which is partly, sort of, the quandary that we find ourselves 
in.
    Secretary Burns, just a couple of last questions before we 
shift to the next panel.
    To what does this administration attribute the rise of the 
radicalism within Pakistan?
    Secretary Burns. That's an enormously complicated question, 
but I'll try to give you a good answer.
    Pakistan has been roiled by political divisions and 
tensions over the last 35 or 40 years, and very much divided--
badly divided--inside the country by those various tensions. 
And that has been its first source of conflict and instability.
    A second has been the rise of some of the radical--some of 
the radical Islamists indigenous groups, as well as the 
presence of al-Qaeda and the Taliban as a factor in parts of 
Pakistan's political life. And they've been enormously 
complicated.
    Third have been the issues that have grown out of the fact 
that there was a military coup and a military government took 
over the country. And the normal political process was denied, 
at least at the start of that period.
    So, you put all of that together, and you have some of the 
sources of instability and conflict that have been present in 
Pakistani political life.
    Senator Kerry. I agree with the historical component, but 
it's never produced the kind of intensity, in the suicide 
bombing and the sort of fragility, that exists today, would you 
say?
    Secretary Burns. Well, I do--I think that Pakistan is 
undergoing a period of particularly intense division and 
instability right now, and we know that al-Qaeda and the 
Taliban and some of the other groups are, at least in part, 
responsible for that type of division.
    Senator Kerry. So, given that--and I agree with that--are 
we just in a box that is, not just uncomfortable, but 
impossible to really maneuver in, in the following sense? 
President Musharraf, I would wager, is more interested in 
holding onto power, and survival, than he is in taking a risk 
for us. I also believe he's probably more interested in doing 
those things than in taking on al-Qaeda and Taliban, if not 
taking them on allows him to survive. And I suspect that's been 
his judgment, to a certain point in time. That may be changing 
now, I don't know. And you might shed some light on that. But, 
whatever he does, if he does take them on, or any of those 
other elements, in a hard fashion, he goes counter to the 
democratic interests that the administration has expressed, and 
the world supports, and also encourages people to see him as 
acting on our behalf, which then emboldens the very elements 
that he's, sort of, trying to deal with. So, you get this 
circular relationship that obviously increases the complexity.
    Is there a breakpoint here, where you kind of make the cut 
that the way you survive is, in fact, by full-fledged taking 
them on, without then becoming, sort of, the tool of the United 
States? And, if not, are we just stuck, that al-Qaeda sits 
there with its refuge, safe haven, because the accommodation 
that exists between them is the easier way to survive and 
thread the needle, in terms of his own interests--and the 
army's interest, I might add?
    Secretary Burns. Yeah. Well, I do think it's an enormously 
complicated landscape, but I don't think, necessarily, we're in 
a box, strategically. We need a strong friend and partner to 
fight al-Qaeda and the other terrorist groups. We have that 
person, in President Musharraf; first point.
    My second point would be that obviously what we would like 
to see is the positive evolution of his government and the 
country toward a fuller democracy, because we believe that's 
not just the right thing for the people, but the right way to 
help stabilize the country over the long term.
    Third, part of our challenge is to combat the Taliban in 
Afghanistan. We need the Pakistanis to help us do that, through 
actions on their side of the border. We can contain the Taliban 
threat to the Karzai government. We have sufficient military 
force--we and the allies--NATO allies--in the country to do 
that, but we need to then--we need to do that in concert with 
Pakistani efforts on that side of the border.
    And that leads me back to your question. We need a strong 
partner, who's willing to take military action on this priority 
issue. And we have it. And we just hope it----
    Senator Kerry. Do you have only with respect to the 
Taliban----
    Secretary Burns. Excuse me?
    Senator Kerry [continuing]. Do you have that partnership, 
in terms of taking them on, only with respect to the Taliban, 
because of the Afghanistan connection, but not with respect to 
al-Qaeda, because of the internals?
    Secretary Burns. We need the partnership to combat both, 
and I think you----
    Senator Kerry. But do you believe----
    Ambassador Burns [continuing]. Have that----
    Senator Kerry [continuing]. You have it, with respect to 
al-Qaeda?
    Secretary Burns. We have the commitment.
    Senator Kerry. Do you have the cooperation?
    Secretary Burns. We need to see effective--more effective 
action.
    Senator Kerry. Well, I would agree with that, and I 
appreciate your saying that.
    Let me--we need to move on to the next panel. I think you 
have answered a number of tough questions, as carefully as 
possible, in some respects. It's tough to do in the open 
session, and we all understand that. But I think it's been very 
helpful, and, I hope, helps to clarify, for some people, just 
how complicated this is.
    So, we thank you, and we look forward to continuing to work 
with you on this issue in the days ahead.
    Thank you.
    If I could ask----
    Secretary Burns. Thank you.
    Senator Kerry [continuing]. If we could keep everybody, 
sort of, quiet in place, and we can move right on to the second 
panel, if possible.
    Thank you, Secretary.
    Secretary Burns. Thank you. Thank you very much.
    Senator Kerry. Please, sit. Thank you so much for your 
patience. We have a terrific panel of experts here, and I 
appreciate your patience. You've had a chance to really listen, 
which is helpful. So, I welcome the Honorable Teresita 
Schaffer, director of the South Asia Program, Center for 
Strategic and International Studies; Dr. Samina Ahmed, South 
Asia project director, International Crisis Group; and Dr. 
Stephen Cohen, senior fellow of foreign policy studies at the 
Brookings Institution.
    I don't want to cut off something you have to say--your 
full texts are going to be put in the record, as if in full. If 
there's a way to summarize, somewhere in the vicinity of 5 or 6 
minutes, I think it would be helpful, and then we can have some 
discussion and go further from there.
    Dr. Schaffer, please.

 STATEMENT OF HON. TERESITA C. SCHAFFER, DIRECTOR, SOUTH ASIA 
   PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                         WASHINGTON, DC

    Ambassador Schaffer. I'll do my best, Senator.
    And, first of all, thank you very much for inviting me here 
to testify today.
    My prepared statement describes the three big challenges 
that I see Pakistan facing today, and they've all been 
discussed at length. The one point that I think--there's two 
points that I think need to be underlined, however.
    First, there is a distinction to be made between the 
challenge from, basically, lawbreakers who were in the Red 
Mosque in Islamabad, who were flouting governmental authority, 
and the extremist challenge in the northwest frontier province, 
which is, fundamentally, backwash from the Afghanistan 
conflict.
    The second point has to do with the elections. Obviously, 
the upcoming elections hang over all of the other challenges 
that President Musharraf is facing. The problem is, first of 
all, that there are two elections. There's an indirect election 
for President. The President is elected by the national and 
provincial assemblies. And there is a popular election for the 
assemblies. Both are coming up. Both the sequence of them and 
the question of whether President Musharraf can run in uniform 
are legally complex and controversial. My reading is that the 
government has a stronger case for its argument to have the 
Presidential election first than it does for Musharraf running 
in uniform. But, particularly following the Supreme Court 
ruling reinstating the Chief Justice, it's evident that both of 
these issues are going to be challenged in the courts. So, 
Musharraf, I think, to his unhappiness and surprise, is facing 
a much more uncertain election picture than he was before.
    Let me move to my policy recommendations, and focus on 
them, rather than on going back through, analyzing the 
situation.
    I have three basic recommendations:
    The first is that the United States seize the opportunity 
that the Supreme Court has handed to it, and come out strongly 
in favor of the rule of law, a free and fair election, and 
moving toward a truly democratic government. This would 
include, in my book, supporting a court ruling, should there be 
one, that Musharraf should resign from the army if he wishes to 
run for President. That's the bit that's going to be 
controversial, and that the administration hasn't reached that 
point yet.
    Why am I arguing for this? Not just because it is in line 
with U.S. values, but it also reflects a hard-nosed judgment 
about the relationship between the Pakistan Army and the 
militants who threaten the progressive modern Islamic character 
of the state. In the past, when the Pakistani state has cracked 
down on extremist militants, the army has often pulled its 
punches, making sure that militant groups remained alive and 
available to work with them across Pakistan's tense borders in 
the future. I think that extremism cannot be kept half-
contained in this fashion. As long as the army remains in 
charge of policy, without a serious political supervision, I 
think it's unlikely to treat the extremists as the enemy they 
have become. Hence, my belief that we have to move back to a 
government that's elected in a truly democratic process.
    My second recommendation has to do with the tribal areas. I 
strongly oppose the idea of U.S. military intervention. I 
think--can think of no quicker way of turning all of Pakistan 
against the antiterrorism goals that are so important to the 
United States, and turning the Pakistan Army into a hostile 
force. To use the military terminology, I don't think it would 
be a permissive environment.
    Support for Pakistan's operations in the frontier is 
another story. There, we should be generous and creative.
    As far as economic support for integrating the tribal areas 
into Pakistan is concerned, I'm in favor of being willing to 
spend generously, and I'm even in favor of taking the risk that 
some of that money would go astray, and that is a very 
significant risk. I think we need to focus on jobs for the 
youth of the frontier. I think we need to focus on links to the 
Pakistani economy. The idea of free access to the U.S. market 
for goods produced there is fine, but, right at the moment, 
there aren't any. That is looking way into the future.
    And, finally, this kind of integration effort normally 
depends on working with existing structures for social 
management and administration. At least in parts of the 
frontier, and in the most troublesome ones, those structures 
really don't exist anymore. The tribal chiefs are, by and 
large, gone from the south Waziristan area, where there was so 
much talk of a deal. So, I think this is--was, in any case, 
going to be the work of a generation. I think it's gotten 
harder.
    My final recommendation has to do with aid to Pakistan. I 
think we need to keep economic assistance generous, carefully 
programmed--meaning, not just cash--and largely immune from the 
ups and downs of our relationship with Pakistan. This needs to 
become the embodiment of a long-term commitment, which we need 
to make to Pakistan in light of the continuing interests we 
will have there.
    As far as military aid is concerned, I think we should try 
to focus, as much as possible, on equipment that is relevant to 
the fight against terrorism, and I think that military 
equipment for general upgrading of defense capabilities should 
be conditioned on how well Pakistan is doing in these other 
policy goals.
    My final recommendation, I think we need to broaden and 
deepen the antiterrorism consensus in Pakistan. You asked very 
pointed questions about the rise of radicalism in Pakistan, and 
the rise of anti-Americanism. I served in Pakistan 30 years 
ago, I can tell you it's a different country now.
    Lots of things have gone into this, movements that have 
swept through the Muslim world, the tremendous sense of 
injustice that pervades a lot of Muslim societies, but I think 
the ``I'' word is there, too: Iraq. This has certainly 
exacerbated public perceptions of the United States, and the 
sense that the United States is a country that attacks Muslims.
    The United States can't turn this around single-handedly. 
We can't ``sell'' what we don't ``do.'' But one thing we can 
start doing is to listen more carefully to what Pakistanis, 
around the country, say about their hopes for a better future. 
I think there are a lot of people out there who want 
enlightened moderation. That should inform the rest of our 
policy.
    I was pleased that Secretary Burns put so much of his 
testimony in terms of our relationship with Pakistan, and not 
just our relationship with Musharraf. It's a subtle 
distinction, but a vitally important one.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Schaffer follows:]

         Prepared Statement of Ambassador Teresita C. Schaffer

                pakistan: today's crisis and u.s. policy
    Mr. Chairman, members of the committee, thank you for inviting me 
to appear before you. Pakistan today is going through the most severe 
crisis it has faced in the past eight years. Its future matters 
profoundly to the United States and to the region, so it is a good time 
to take stock of U.S. policy.
    I would like to sketch out briefly the multiple crises Pakistan now 
faces. I conclude that the United States needs to put its weight behind 
a return to civilian rule through free and fair elections, a separation 
between the offices of President and Army chief, and reducing the 
army's role in domestic politics, while ensuring that the army's 
essential role in national security is properly institutionalized. 
Generous economic aid and properly targeted and conditioned military 
aid are part of this. The U.S. should not intervene in the tribal 
areas. And the United States urgently needs to try to strengthen and 
broaden the anti-terrorism consensus within Pakistan.
    Three short-term dramas are playing out in Pakistan. The first is a 
challenge to the basic authority of the government to keep order, best 
exemplified by the kidnapping and other lawless activities carried out 
by the Red Mosque leadership and their students. Musharraf's decision 
to respond was welcomed by all but the most hard-line supporters of the 
militants, and briefly strengthened his position. Once the death toll 
became known, however, it was followed by a rash of suicide bombings, 
not just near the Afghan border but as far away as Karachi, leaving 
another 200 or so people dead. The extremist threat to Pakistan's 
government and society is still with us.
    The second drama is the spillover from the conflict in Afghanistan. 
The demise of the agreement between the Pakistan government and the 
tribal leaders in Waziristan is the latest development on this front, 
although from my perspective that agreement never really went into 
operation, so its death should not be front-page news. This relates to 
the speculation about whether the United States will or should 
intervene militarily in the tribal areas to prevent Al-Qaeda from using 
them as a sanctuary.
    The third drama stems from Musharraf's decision to suspend the 
Chief Justice last March, which the Supreme Court has now overturned. 
The decision and the government's response, including the May riots in 
Karachi that left 40 people dead, shattered Musharraf's legitimacy and 
his popular support. It appears to have awakened considerable popular 
resentment against the army, and concern within the army.
    The Supreme Court's ruling last week was a serious embarrassment to 
Musharraf. It also interferes with Musharraf's strategy of seeking 
reelection later this year, with the presidential election preceding 
the legislative elections, and with Musharraf retaining his post as 
Army chief. The legal provisions governing both the sequence of the 
elections and Musharraf's dual positions are complex and confusing, but 
it is clear that both will be challenged in the courts. Musharraf can 
no longer be confident that the courts will support him.
    The United States needs Pakistan as a committed partner in the 
struggle against terrorism and insurgency, especially in the Pakistan/
Afghanistan border region. It needs a Pakistan government that can keep 
order and has legitimacy, one that will not allow Pakistan to be used 
as a platform for insurgency or irredentism in either Afghanistan or 
its nuclear-armed neighbor India.
    My recommendations for U.S. policy focus on three things: support 
for Pakistan's return to elected, civilian government; dealing with 
Pakistan's frontier area; and military and economic aid.
    Pakistan's political future matters profoundly to the future peace 
and governability of the region. The Supreme Court ruling has given 
us--and Pakistan--an opportunity to stand up for the rule of law. This 
is the only way to set Pakistan on the course toward ``enlightened 
moderation'' that many Pakistanis believe is their country's 
birthright. The United States has welcomed the Supreme Court decision. 
Accordingly, we need to make clear as events proceed that we expect the 
coming elections to be fully free and fair, with Musharraf choosing 
between the offices of president or army chief.
    This may seem like an odd time for the United States to be taking a 
strong stand for moving back to a freely elected government and 
democratic institutions. This policy, however, is not just a reflection 
of American values. It also reflects a hard-nosed judgment about the 
relationship between the Pakistan army and the militants who threaten 
to destroy the progressive, modern Islamic character of the state that 
underpins real policy cooperation with the United States. In the past, 
when the Pakistani state has cracked down on extremist militants, the 
army has often pulled its punches, making sure that militant groups 
remained alive and available to work with them across Pakistan's tense 
borders in the future. That policy, I believe, is doomed to failure. 
Extremism cannot be kept half-contained in this fashion. It poses a 
mortal danger to Pakistan's domestic well-being. As long as the army 
remains in charge of policy, it is unlikely to treat the extremists as 
the enemy they are, and will not be able to end the domestic threat 
they pose. Doing this requires a committed political government, with 
full legitimacy. The army will of course play a critical role enforcing 
the government's policies and defending Pakistan. But this role needs 
to be anchored in a set of institutions in which elected political 
power is firmly in charge, and fully accountable.
    Musharraf may be in trouble, but he is the leader in Pakistan 
today, so making this shift of emphasis without undermining his ability 
to make decisions will be tricky. Since he has said he wants to hold 
elections on time, and does not want to move toward a state of 
emergency, the policy I propose is in line with his stated goals. But 
it also recognizes that Pakistan's best shot at dealing with the danger 
of violent extremism comes from moving back to a government that enjoys 
full legitimacy.
    Regarding the problem of the tribal areas, I strongly oppose direct 
U.S. military intervention. I can think of no quicker way of turning 
all of Pakistan against the anti-terrorism goals that are so important 
to the United States, and turning the Pakistan army into a hostile 
force. Support for Pakistan's operations in the frontier area is 
another story: there we should be generous and creative.
    But bringing the tribal areas under control is the work of a 
generation, and will require political and economic as well as military 
means. We do not understand the tribal society, its complex web of 
relationships with Pakistan and Afghanistan, and the fragile economy 
there, well enough to leave it in better shape than we found it. I 
support a major development program, despite the substantial risk that 
some of the money would go astray. Without jobs for the youth of the 
tribal areas, I don't see how one can begin the long task of bringing 
them into the government net. But let us be clear that this will not 
bear fruit for several years.
    My final recommendation deals with assistance programs in Pakistan. 
I have long believed that we need to use our economic assistance to 
build a long term relationship with Pakistan. We should increase it 
relative to military assistance, and should hold it largely immune to 
the political ups and downs of the relationship. We should be 
programming our economic aid rather than giving it in cash or quasi-
cash form, and we should be using our assistance to build up Pakistan's 
investment in its own people, in education and health.
    Military assistance is also an important expression of our long-
term commitment to the people of Pakistan, but here it is important to 
draw some distinctions we have not drawn in the past. Military sales 
should focus in the first instance on equipment that will help Pakistan 
with its vital counter-terrorism goals. Military sales that relate more 
to general defense upgrading should take a back seat, and should be 
contingent on Pakistan's effective performance in countering militant 
extremists, both along the Afghan border and elsewhere. If we continue 
to find that Pakistan's army is hedging its bets in Afghanistan and 
providing support for the Taliban, or for domestic militant groups, we 
should put this type of military sales on hold.
    My other recommendation is more general. The administration has 
tended to speak of Musharraf whenever it is asked about policy toward 
Pakistan. I think we need to shift our emphasis to the whole of 
Pakistan. Obviously, leaders are important, especially in troubled 
countries at troubled times. But the sustainability of Pakistan's 
political system and its ability to grow new leaders are absolutely 
critical to the goal of combating terrorism that has been at the top of 
our list for the past six years. This means that we need the Pakistani 
political system--or as many parts of it as possible--to buy into the 
goal of eliminating extremist influence in Pakistan. Especially since 
the invasion of Iraq, this has become a very tough job in a country 
where public opinion now regards the United States as a country that 
``attacks Muslims.'' Hence my final recommendation. We need to listen 
to what Pakistanis are saying about their hopes for a better future for 
their country. If, as I suspect, there is widespread but amorphous 
sentiment for ``enlightened moderation,'' we need to help strengthen 
and deepen that, and to show by our actions that this is where we want 
to go, together with Pakistan.


    Senator Kerry. Well, I couldn't agree with you more on 
that. I tried to emphasize it in my own comments.
    Dr. Cohen.

   STATEMENT OF DR. STEPHEN P. COHEN, SENIOR FELLOW, FOREIGN 
   POLICY STUDIES, THE BROOKINGS INSTITUTION, WASHINGTON, DC

    Senator Kerry. Can you push your mike a little closer.
    Dr. Cohen. Thank you.
    Senator Kerry. You're lit. Pull it close to you, too.
    Dr. Cohen. I'm a Cub fan, and I know the meaning of hope, 
even more than a Red Sox fan, but I don't think that hope is 
the appropriate term to use in dealing with policy. I worked 
for George Schultz for a couple of years, and he told us, one 
day, ``Hope is not a policy.'' And I think that we need to be 
more specific, more concrete, with our relationship with 
Pakistan.
    But I think that we have, actually, three problems we're 
dealing with--two short term and one long term:
    The short-term problems are the Taliban and al-Qaeda. And 
clearly, they do present--al-Qaeda, in particular, presents an 
immediate threat to the United States. Taliban presents a 
threat--an indirect threat, in that it harbored al-Qaeda in 
Afghanistan.
    But we have a long-term threat, in the case of Pakistan. 
Pakistan has been the most allied of allied countries, and so 
forth. It's been a close country to the United States for many 
years. But Pakistanis, especially the military, say that we 
have used Pakistan like a tissue paper--I think it's a stronger 
word, they say a condom--and thrown it away time and time 
again. So, there's deep distrust in Pakistan with regard to the 
American relationship, especially among the military. And our 
billions of dollars have not bought loyalty, they've bought 
cooperation, to some degree.
    I think that part of the problem is that we're not clear 
exactly what our priorities are. This may well be a 
bureaucratic problem, it may be differences in the 
administration, it may be Congress versus the administration. 
I'm not quite sure. But clearly, we want to--we want the 
Pakistanis to help us round up al-Qaeda. We want them to stop 
supporting the Taliban, or tolerating the Taliban. We want 
Pakistan to reform itself, to become a democracy. We want 
Pakistan to clean up the madrassahs. We want Pakistan to be a 
democracy. And we want Pakistan to stop abusing human rights 
and have good relations with India. From a Pakistani point of 
view, they look at this list, and they say, ``Well, what is 
their real priority? What do we really have to do? What can we 
do?'' They're not always the same thing that we're concerned 
about. So, I think that part of our problem in dealing with 
Pakistan, especially in recent years, is that we lack a 
fundamental understanding with the Pakistanis as to what is 
most important, what is least important. And I don't--until 
that--until that difference is resolved, I think that we're 
just going to continue to spin our wheels. In fact, the 
questions here reflected a wide range of interests in Pakistan. 
The answers were interesting, but I don't think that we can 
meet all of the--I don't think we can meet all of the demands 
I've heard here today.
    Let me say a word about the military, because I think that 
is really the key of--to Pakistan. Musharraf is a product of 
the military. His most important constituent is the military. 
He responds to challenges from the United States, from China, 
from the Saudis, from the Pakistani people. He also--but he 
really responds to challenges from the military. And I think 
he's concerned about his position as army commander in chief. 
And that's one reason he does not want to take off his uniform. 
He wants to hold the triple position of leader of a political 
party, President of Pakistan, and commander of the army. And I 
think that's constitutionally unsustainable. And, in the long 
run, it's unsustainable for Pakistan. Pakistan is a country 
that's been walking on one strong leg, which is the army. It 
needs to grow another leg, which is a civilian side. So, I 
think, in terms of our policies, we've got to urge Pakistan to 
move toward a more balanced civil/military relations.
    Now, elections may not be the immediate answer to this. 
Elections are important, but it's always the second election; 
that's really crucial. And I don't think there's quite yet a 
political consensus between the military and leading civilian 
elements in Pakistan to have a free and fair election. There 
may be an election, but I think it's going to be a rigged 
election.
    From my perspective, that would not necessarily be a bad 
thing, if it led to a more free election after that, and, 
ultimately, completely free elections. So, I think we should 
see Pakistan's democratization as a crucial long-term interest 
of ours, but something we're not going to achieve overnight. We 
can't force Musharraf or the military to institute overnight.
    Finally, let me add that I agree, just about, with all of 
Ambassador Schaffer's recommendations. We prepared our 
testimony separately, but we come up to the many of the same 
points.
    I think that our military assistance should be made 
conditional on good performance in the case of al-Qaeda and 
Taliban. In the case of Taliban, the army has an--Pakistan Army 
has an interest in looking the other way, at least, because 
they see the Taliban as one of the few instruments they have in 
their position in Afghanistan. It's a strategic asset for them. 
It's not simply--it's not--I think that there should definitely 
be no military intervention in Pakistan. I think it would just 
simply blow the lid off the place and destroy our relationship 
with that country.
    We should urge the Pakistanis, both civilians and--both 
civil and military side--to develop a normal civil/military 
relationship. The models we've had in Latin America, Southeast 
Asia, other countries, are appropriate for Pakistan; sort of, a 
phased withdrawal of the armed forces from politics.
    And, finally, we need a dialog with India and China 
regarding the future of Pakistan. The Chinese are vitally 
interested in Pakistan. I think that the stimulating--the key 
event that forced the Pakistanis to move against Lal Masjid was 
the fact that Chinese were being killed, and one Chinese--a 
couple of Chinese had been kidnapped by the ladies of Lal 
Masjid. And I think Musharraf responded to that pressure faster 
than anything else.
    So, I think the Chinese have a concern about Pakistan 
becoming a truly radical state. The Indians, of course, have a 
vital interest in that. And I think there's an opportunity for 
the United States to be--to, in a sense, (a) assist Pakistan 
and India to a strategic reconfiguration of South Asia--that 
is, get the Pakistan Army back on the frontier, where it used 
to be in the old days, with the British-Indian Army; get the 
Indian Army--India military doing global things, in a sense, 
not fighting each other. But that's a long-term goal that I 
think we should take a step down that road.
    Thank you.
    [The prepared statement of Dr. Cohen follows:]


               Prepared Statement of Dr. Stephen P. Cohen

    Senator Kerry, members of the Committee, I am honored to again be 
asked to share my expertise with you. Writing about Pakistan since the 
mid 1960s, and visiting it regularly since 1977, I am the author of two 
books on Pakistan: ``The Pakistan Army'' (1985) and ``The Idea of 
Pakistan'' (2004), and dealt with Pakistan during my two years as a 
member of Secretary Schultz's Policy Planning Staff in the Department 
of State.
    A short paper summarizing my understanding of Pakistan and its 
future is appended, as is an op ed piece that recently appeared in the 
Washington Post. I ask permission to attach these to my testimony. I 
have divided my remarks into six observations about the present 
situation in Pakistan followed by seven policy recommendations.
    Pakistan used to be an important state because of its assets, but 
it is now just as important because of its problems. Pakistan was once 
truly a moderate Muslim country, the radical Islamists were marginal 
and it had a democratic tradition even when the military ruled. In 
recent years virtually all segments of Pakistani opinion have turned 
anti-American. President Musharraf has not moved towards restoring real 
democracy, Pakistan has been the worst proliferator of advanced nuclear 
and missile technology, and the country continues to harbor-partially 
involuntarily-extremists and terrorists whose dedicated mission is to 
attack the United States and Pakistan's neighbors.
    Recent events show that while Pakistanis may be at times incapable 
of operating a democracy, they want one. The Supreme Court's reversal 
of the suspension of the Chief Justice, the restraint of moderate 
politicians, the courageous actions of the Pakistani press and 
electronic media, and the outpouring of support for democracy among 
Pakistani professionals and elites are all convincing evidence that the 
US was wrong to tolerate Musharraf's contempt for democracy. One more 
or less free election will not fix the problem, however, and building a 
workable democracy will take time.
    Musharraf is personally moderate but is strategically indecisive 
and is in political decline. He has led Pakistan by exiling the leading 
political opposition, co-opting some of the most corrupt elements of 
Pakistani society and aligning with the Islamists. His survival 
strategy was to meet external pressure from the US, China, and India 
with minimal concessions. However, in the last year or so he has 
systematically alienated most segments of Pakistani society and 
infuriated his friends, both at home and abroad.
    Musharraf will stay on only if he allies with the centrist 
political forces in Pakistan. If he continues to stumble, mass protests 
will make his rule impossible. Severe riots in Lahore and other Punjabi 
cities will likely turn the army against him. If he accommodates the 
centrist opposition parties he should be able to stay on, albeit 
without his uniform. While Musharraf has a low opinion of civilian 
leaders, especially exiled former prime ministers Benazir Bhutto and 
Nawaz Sharif, other generals understand that their dilemma is that they 
cannot alone govern a complex society such as Pakistan. The time has 
come to move Pakistan towards a workable civil-military balance.
    We do not have to worry overmuch about Musharraf's successor, or a 
civil-military coalition. However, unless real reform is taken now, the 
government that follows that may be cause for worry. In theory 
Musharraf is capable of initiating such reform, but in practice he has 
been reluctant to do it.
    A final observation is that Pakistan's domestic politics remain 
shaped by its security and foreign policy concerns. To the east there 
is a continuing threat from India, whose army has now adopted a policy 
that amounts to attacking in force across the border in retaliation for 
the next terrorist incident. Fortunately, this may not be the Indian 
government's policy. Continuing hostility with India ensures that the 
Pakistan army will indefinitely remain at the center of Pakistani 
politics. Looking west, the army remains concerned about India's 
encircling influence in Afghanistan, and there are strong tribal ties 
between Pakistani and Afghan Pushtuns. This means that American policy 
has to deal with both sides of the border if it wants to stabilize 
Afghanistan.
    With these observations in mind, I would make the following 
recommendations.


   Washington cannot again abandon Pakistan, but it needs to change 
        the nature of the relationship with a state whose collapse 
        would be devastating to American interests. The Bush 
        administration was correct in lifting the many sanctions that 
        were imposed on Pakistan, but it was lax in holding the 
        Pakistani government to a high standard of governance, and to 
        President Musharraf's own stated goals and objectives.

   The United States needs to make it absolutely clear to the 
        Pakistani leadership what our highest priorities are, and be 
        prepared to withdraw or reduce our assistance if there is no 
        effective cooperation from Islamabad. The US has provided 
        between ten and twenty-five billion dollars to Pakistan. Yet we 
        ask Pakistan to a) round up al Qaeda terrorists, b) suppress 
        the Taliban, c) stop future proliferation, d) move towards 
        democracy, e) clamp down on radical madrassas, f) normalize 
        relations with India, g) work with Afghanistan, and h) maintain 
        civil liberties and a free press. Pakistanis look at this wish 
        list and offer us what they think would be minimally 
        acceptable. The various United States agencies and department 
        must work out amongst themselves what is desirable and what is 
        essential, and what Pakistan can deliver. Our lack of expertise 
        on Pakistan hampers us in this regard. Pakistanis know how to 
        deal with Americans better than we know how to deal with them.

   Our contacts with Pakistan must be broadened. We made a strategic 
        mistake in basing our entire Pakistan policy on President 
        Musharraf. He, like his military predecessors, knows how to 
        work the American "account." We hurt ourselves by cutting off 
        out contacts with Pakistani civil society, with leading 
        politicians, and with a timid public diplomacy. One bright 
        light has been an expanded Fulbright program, which is 
        educating a new generation of Pakistiani academics. Such 
        contacts and programs need to be greatly expanded, even at the 
        cost of some military assistance. They represent an enduring 
        contribution to Pakistan's growth as modern, moderate state.

   While the U.S. should not do anything to undercut President 
        Musharraf's position, it should do everything we can to ensure 
        that he broadens his base. In 1985, I wrote that the army 
        needed a strategy of strategic retreat from politics, but that 
        this could only take place as civilian leaders and institutions 
        developed competence. This remains true. While we should push 
        for elections, they are meaningless unless there are 
        politicians who can govern. Pakistani politics is mostly issue-
        free: it is about patronage and money. Our officials, scholars 
        and NGOs should concentrate on strengthening civilian 
        competence, and if the opportunity arises, help broker an 
        understanding between the army and centrist political forces in 
        Pakistan. We need to invest in the long-term stability of 
        Pakistan.

   Any American military operations in Pakistan against the Taliban 
        should be conducted jointly with the Pakistan army. The 
        sovereignty issue runs as deep in Pakistan as it does in the 
        United States and most other countries. We should not risk 
        further alienation by unilateral military action. These are in 
        any case difficult, and the removal of a few terrorist leaders, 
        no matter how satisfying, is less important than preventing the 
        radicalization of thousands, if not tens of thousands, of 
        educated and professionally adept Pakistanis. The issue is not 
        just whether unilateral American military action would lead to 
        Musharraf's departure, but whether it would alienate virtually 
        all Pakistanis--it would do both.

   In the case of the Taliban, which is openly tolerated by Pakistan 
        and based in urban centers such as Quetta, our aid should be 
        conditional. Pakistan uses the Taliban to balance supposed 
        Indian dominance (via the Northern Alliance) in Afghanistan. We 
        are not ``losing'' Afghanistan, although progress could be 
        better. We would be better off attempting to limit the presence 
        of all outside powers and their proxies in Afghanistan. This 
        applies to Russia, China, India, and Iran, as well as Pakistan.

   With the U.S.-India nuclear agreement completed, Washington should 
        talk to New Delhi (and Beijing) about how to normalize 
        Pakistani politics. A successful settlement on Kashmir with 
        Musharraf or another leader would go a long way toward reducing 
        the military pressure on Pakistan, allowing it to concentrate 
        more resources on counterinsurgency in the Northwest Frontier 
        Province and Federally Administered Tribal Areas. Binding the 
        tribal areas to Pakistan proper will take years, and is bound 
        to be disruptive and a major undertaking. Pakistan cannot take 
        it on while preparing to fight a full scale war against India. 
        Some in India will be tempted to ``bleed'' Pakistan the way 
        Islamabad bled India for years via its surrogates, but that 
        would be shortsighted, and increases the risk of still another 
        India-Pakistan war. Washington, with its good ties to both 
        countries, ought to propose a new strategic deal whereby the 
        issues of the past are settled, enabling both countries to deal 
        with the problems of the future.


    Senator Kerry. That was very helpful, thank you.
    Dr. Ahmed.

  STATEMENT OF DR. SAMINA AHMED, SOUTH ASIA PROJECT DIRECTOR, 
        INTERNATIONAL CRISIS GROUP, ISLAMABAD, PAKISTAN

    Dr. Ahmed. Thank you, sir. And thank you for inviting me to 
testify.
    When we start discussing these issues, we--you know, and I 
thought the title of this testimony--the hearing itself--was 
important. What does actually serve the interests of the United 
States and the interests of the Pakistani people?
    Senator Kerry. We'll check it out. Keep talking.
    Dr. Ahmed. OK.
    I don't think it's counterproductive to say that, ``Well, 
this serves the interests of the United States, and that is in 
the interest of the Pakistani people.'' What is important right 
now is to see where the battle lines are, as somebody said, 
earlier on--and I think it was Secretary Burns--that it's a 
fight between moderation and the forces of extremism.
    The real battle lines, if you're in Pakistan and you 
understand what is happening on the ground, are the divisions 
between civil and the military. This is--that is really the 
reason why this is a crucial year. It's the forces of 
moderation and democracy versus authoritarianism.
    We also have to look at the alliance relationship there. 
General Musharraf's government, while it is aligned to the 
United States in fighting terror, while it pledges to support 
the United States against the Taliban and al-Qaeda, is in a 
coalition government with one Islamist party, called JUIF, 
which is pro-Taliban, and that province where this party is 
dominant, Balochistan, is where forces right across the border 
that are being attacked, where Quetta was mentioned, where you 
actually have----
    Senator Kerry. All right, ladies and gentlemen, let me just 
ask everybody--we have to--we are forced to adjourn the 
hearing. We need to evacuate the building.\1\ If I could just 
ask everybody to do so calmly and quietly.
---------------------------------------------------------------------------
    \1\ On July 25, 2007, the Dirksen Senate Office Building was 
evacuated due to smoke caused by an electrical system malfunction. The 
committee did not reconvene the hearing.
---------------------------------------------------------------------------
    [Whereupon, at 4:47 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                 Prepared Statement of Dr. Samina Ahmed

    I want to thank the subcommittee chairman Senator John. F. Kerry 
and ranking minority member Norm Coleman, for holding this important 
hearing and inviting me to testify on behalf of the International 
Crisis Group on U.S. policy choices towards Pakistan that would protect 
American interests and advance the goals of the Pakistani people.
    The Crisis Group has been in Pakistan since December 2001, and has 
published reports directly relevant to the issues under this 
committee's review. Assessing conditions in Pakistan and U.S. policy 
choices, we have repeatedly stressed that military rule does not serve 
American interests in reducing Islamist threats in and from Pakistan to 
the United States, creating stability in Afghanistan and ensuring peace 
in South Asia. Short-term gains after September 11 have been undermined 
by the long-term risks of a military that is only a grudging ally in 
the fight against extremism. A transition to an elected civilian 
government in Pakistan would reduce the influence of Islamist parties 
in politics, help advance counter-terrorism cooperation, and offer a 
deeper and wider relationship with the people of Pakistan.
    As presidential and national elections fast approach in Pakistan, 
President and Army Chief General Pervez Musharraf faces the most 
serious challenge to eight years of military rule. For the first time 
since the October 1999 coup, Musharraf's authoritarian rule appears 
shaky. Public opposition has gathered momentum following the general's 
abortive bid to remove the Chief Justice of the Supreme Court of 
Pakistan.
    We are concerned that President Musharraf appears to have no 
intention of leaving power voluntarily or holding free and fair 
elections. However, given an increasingly assertive opposition, it will 
be impossible for the president and his military backers to maintain 
the status quo. Western friends of Pakistan, most influentially the 
United States, should not be or be seen as propping up President 
Musharraf against a overwhelming popular demand that Pakistan return to 
democratic government by holding a free, fair and democratic election 
in 2007.
    The worst scenario in Pakistan is the imposition of rule by 
emergency decree and the use of force to suppress the expected massive 
opposition. This would immediately produce chaos and violence and 
ultimately increase the role of Islamist groups and, if Washington 
supports the move or even tacitly accepts it, further increase anti-
U.S. sentiment. The best scenario is Pakistan's transition to 
democratic rule through free and fair elections that would marginalize 
extremist forces and reduce growing tensions in society. This could 
occur if the military feels it is in its interests to pull back from 
direct rule, as it has in the past.
    The United States should urge a peaceful transition by strongly and 
publicly urging Musharraf and his military against subverting the 
electoral process or any measures to stifle constitutionally guaranteed 
freedoms of speech, association, assembly and movement. It should urge 
President Musharraf and his military to allow a return to democracy 
through free and fair elections, including the return of exiled 
political leaders.
                          musharraf's choices
    As President and Army Chief General Pervez Musharraf completes his 
five-year term and the National Assembly, which will elect the new 
President, also ends its term of office this year; hence two crucial 
elections are due.
    When he took over power in October 1999, Musharraf dissolved the 
parliament through a military coup and sent the democratically elected 
prime minister into exile. After having been elected president through 
a rigged referendum in April 2002-the referendum was itself an 
unconstitutional device-Musharraf oversaw deeply flawed national 
elections later that year. National and international observers cited 
numerous violations and direct fraud. The resulting parliament, packed 
with his supporters, including the Islamist parties, gave Musharraf a 
vote of confidence and allowed him to retain his army post. Musharraf's 
presidency ends in October. The national parliament completes its five-
year life in November. The electoral timetable and Musharraf's decision 
to retain or give up the post of army chief will, to a considerable 
extent, determine if the military intends to opt for a potentially 
risky and likely short-lived regime survival strategy or a democratic 
transition.
    Musharraf could opt for one of three choices:

1. Presidential Before Parliamentary Polls
    In Pakistan's parliamentary democracy, the directly elected 
parliament elects the prime minister, the head of government who 
represents the majority in the national legislature. Pakistan's 
president, the head of state, who symbolizes the federation, is not 
directly chosen by popular vote but by an Electoral College consisting 
of the bicameral national legislature and the four Provincial 
Assemblies.
    Musharraf has, however, expressed his intention to obtain another 
five-year presidential term by using the present lame duck assemblies 
as his Electoral College, rather than the intent of the constitution, 
as the opposition insists, the successor assemblies scheduled to be 
elected this year. He is also intent on retaining the position of army 
chief, thus maintaining his personal and the military's institutional 
dominance for another five years.
    Holding the presidential before the parliamentary polls would 
deprive the electoral exercise of legitimacy and could well provoke 
civil unrest countrywide. The president's plan has evoked opposition 
from across the political spectrum, including the moderate political 
parties, the independent media and civil society organizations. 
Opposition leaders insist that this would amount to pre-rigging the 
national polls and they will take this issue to the Supreme Court. No 
moderate opposition party can afford to support Musharraf's re-election 
by the present assemblies without gravely undermining their own party's 
legitimacy.
    The opposition also strongly opposes Musharraf's intention to 
retain the position of army chief. Since the 1973 constitution 
disallows anyone serving in an office of public profit from standing 
for an elected post for a two-year period, his opposition has vowed to 
also take this issue to the Supreme Court.

2. Power Sharing Arrangements
    Pakistan's two major national-level moderate parties, Benazir 
Bhutto's center-left Pakistan People's Party (PPP) and Nawaz Sharif's 
center-right Muslim League (PML-N), that had dominated the democratic 
decade of the 1990s, in government and opposition, had signed a Charter 
of Democracy on 15 May 2006 to respect democratic norms and 
functioning, to uphold the rule of law, and to depoliticize the 
military. Their political competition, including a tendency to seek 
military support, had created opportunities for the military to 
repeatedly intervene and disrupt the democratic process in the 1990s.
    The dangers of this democratic process being derailed, if either 
party chose to once again work with and through the military, even if 
the end goal were the restoration of democracy, cannot be ruled out. 
For the past few months, Musharraf has held talks though intermediaries 
with Bhutto's PPP. Musharraf cannot rely on his party, the Pakistan 
Muslim League (Quaid-i-Azam), which lacks popular support and is 
internally divided. If the PPP, which has the largest support base in 
Pakistan, were to support his presidential bid, he could retain power 
for another five years but with far more legitimacy than he has now.
    Bhutto has insisted that any talks with Musharraf were primarily 
motivated by the desire for an orderly transition from military to 
democratic rule. However, there is as yet no sign of any agreement on 
such a political transition since the PPP insists that Musharraf must 
seek re-election from the new assemblies and must also give up the post 
of army chief. President Musharraf rejects both preconditions. The 
prospects of an accord with PPP are in any case fast fading in the 
aftermath of Musharraf's abortive attempt to dismiss the Chief Justice 
of the Supreme Court of Pakistan and attacks on PPP workers by the 
military and its political allies. Bhutto now says that she will return 
to Pakistan and will not enter into any power-sharing agreement with a 
military usurper. Sharif's party also refuses to accept Musharraf as 
president, with or without his army post.


    Judicial Crisis.--The higher judiciary of Pakistan has a long 
history of legitimizing military rule and interventions. After 
Musharraf's coup, the Supreme Court validated the intervention and the 
present judges of the Supreme Court even swore allegiance to 
Musharraf's political order, in violation of their duty of uphold the 
constitution. However, by refusing to accept military dictates, the 
present holder of the office of Chief Justice, Iftikhar Mohammad 
Chaudhry has restored the faith of the Pakistani people in that 
superior judiciary.
    Fearing that this independent-minded judge might rule in accordance 
with the spirit and content of the constitution and anticipating legal 
challenges to his plans to seek re-election as president-in-uniform by 
the sitting assemblies, Musharraf charged the Chief Justice with 
misconduct and attempted to force him to resign on 9 March. When he 
refused, the Chief Justice was subjected to pressure and threatened by 
Musharraf's military and civilian intelligence agencies. Chaudhry's 
dismissal and subsequent manhandling sparked widespread public outrage 
and protests by the bar associations, a cause that was supported by 
large numbers of sitting judges. In a desperate attempt to quell public 
protests which accompanied the Chief Justice's public appearances, 
Musharraf's coalition partner in the Sindh government, the Muttahida 
Quami Movement used indiscriminate force against the opposition, 
killing more than 40 political party workers in Karachi, mainly from 
the PPP but also from the PML-N and the Awami National Party, a 
moderate Pashtun party, on 12 May.
    The government's efforts to forcibly suppress public protests and 
silence the media have only fuelled public anger. Over time, this 
increasingly vocal opposition, spearheaded by the bar associations, 
supported by the moderate parties and all segments of civil society, 
including human rights groups and the media, is channeling public 
resentment to military rule, and has transformed into a larger 
political battle for the restoration of democracy and rule of law, 
unifying all moderate pro-democracy forces.
    On 20 July, a full bench of the Supreme Court ruled against 
Musharraf's suspension of the Chief Justice, certifying it ``illegal.'' 
The presidential reference to dismiss the Chief Justice was also 
invalidated. Pro-democracy advocates have termed this a victory for 
democracy, the judiciary and civil society. They have vowed to continue 
the movement to its logical conclusion-- the restoration of democracy. 
With expectations also high that the judiciary would now rule against 
any extra-constitutional steps, including Musharraf's bid to retain his 
dual offices of president and army chief and to hold the presidential 
polls before general elections, the military ruler's options are fast 
shrinking.

3. Imposing Emergency
    While Musharraf should step down as army chief and his military 
should opt for a democratic transition, with free and fair elections as 
the essential first step, they might still, despite denials, in a 
desperate last attempt to retain power, impose emergency rule, which 
would suspend fundamental freedoms and restore absolute military rule. 
National elections would also be postponed for another year.
    Should Musharraf opt to disrupt the electoral process and to re-
impose absolute rule, the military might not have any choice but to 
bring troops into the streets to suppress the expected massive 
opposition. This would immediately produce chaos and violence and 
ultimately expand the influence of radical Islamists, and if the 
international community--particularly Washington--supports the military 
government's move, this will cause even further anti-Western sentiment 
among pro-democratic Pakistanis.
    The government could attempt to justify the imposition of emergency 
to the U.S. Government on the grounds of national security, following 
an upsurge in militancy after the bloody end to the stand off at Lal 
Masjid (Red Mosque), a jihadi madrasa complex in the federal capital in 
July. But the military government was itself responsible for this 
crisis, failing, as in the Federally Administered Tribal Areas (FATA), 
to enforce the law against the madrasa's jihadi managers and students 
when the crisis began in January 2007, choosing instead to appease them 
for six months. The militants used this time to muster forces, 
stockpile arms and fortify themselves. In FATA too, where bloody 
attacks by Islamist radicals are claiming a steadily rising death toll, 
Musharraf's deeply flawed peace deals, ceding the region's control to 
the militants, are responsible for the crisis. The militants--Pakistani 
and Afghan Talibs and their Al-Qaeda allies are understandably 
emboldened.
                   implications of a rigged election
    The Pakistani people have demonstrated their desire for a 
democratic transition through public protests and demonstrations. It is 
in Washington's interests to support that demand since a rigged or 
stalled election would not only destabilize Pakistan but also bear 
serious consequences for regional and international security.
    In Balochistan, where the military's attempts to forcibly crush 
Baloch demands for democratic functioning have triggered a province-
wide insurgency, the support base of the Baloch secular, moderate 
regional parties has increased considerably, and hence their likelihood 
of winning a free and fair election. But if Musharraf were to rig the 
polls, he would have little choice but to fall back on the Islamist 
alliance, the Muttahida Majlis-i-Amal (MMA), particularly its largest 
party, the pro-Taliban Jamiat Ulema-e-Islam (Fazlur Rehman-JUI-F) to 
marginalize the staunchly anti-military, and anti-Taliban, Baloch. In 
Northwest Frontier Province (NWFP) too, the military would have little 
choice but to give the MMA free rein to manipulate the electoral 
process if it is to retain the mullahs' support--not just in 
Balochistan but also in the national parliament. This support is 
particularly important since Musharraf will have to once again obtain 
parliamentary assent for his dual positions of president and army 
chief.
    At the national level, the president will also need the Islamist 
MMA's support to counter the opposition of the moderate PPP, PML-N and 
other pro-democracy parties. In the past, the Islamist parties failed 
to gain more than 5 to 8 percent of the popular vote. In the 1990 
elections, the PPP and PML-N alliances won almost 73.5 percent of 
votes. In the 1993 elections, the two parties gained 90 percent of 
votes; and in the 1997 elections, their combined vote was 68 percent. 
Even in the 2002 rigged elections, with military patronage, the 
Islamist parties collectively only managed to garner 11 percent of the 
popular vote, as compared to PPP's 25.1 percent.
    Should the JUI-F, the largest MMA component party, and the 
Taliban's main mentor and political supporter, retain power, courtesy 
military patronage, in Balochistan and NWFP, bordering on Afghanistan's 
restive southern and eastern provinces, the implications for regional 
stability are clear. With the MMA's support, the Taliban and other 
insurgents will continue to use command and control centers and bases 
within Pakistan to plan and conduct cross-border attacks against 
Western and Afghan troops, destabilizing Afghanistan's state-building 
enterprise. Within Pakistan's Pashtun-majority regions, particularly in 
FATA, the JUI-F's militant allies, the beneficiaries of Musharraf's 
ill-conceived peace deals, will continue to flourish, using the 
political space created by the military's marginalization of the 
moderate parties to extend their reach to NWFP's settled areas and 
beyond.
    At the national stage, a rigged or stalled election will likely 
reinforce public perceptions that regime change cannot take place 
through the ballot box. Since a rigged or stalled election will fuel 
public opposition, the military will try to further weaken the 
mainstream moderate parties, leaving the political field open to the 
Islamist forces.
                            the right option
    The right option is a free, fair and democratic election for the 
national parliament followed by their selection of the next President 
upon taking office. Ironically, Musharraf's attempts at pre-election 
rigging, including his onslaught on judicial independence, have helped 
to create a democratic opening. With the pro-democracy movement gaining 
momentum, domestic pressures are building on the military to return to 
the barracks. With the Chief Justice reinstalled, this movement has 
gained further impetus. Musharraf can no longer be sure that a 
judiciary, more confident of its own independence, which is also under 
intense public scrutiny, will act favorably on constitutional issues of 
particular sensitivity, including his re-election from the current 
parliament or retention of the dual offices of president-cum-army 
chief.
    While a reinvigorated opposition will challenge unconstitutional 
moves and closely monitor election irregularities, the military high 
command too must be closely watching the fast changing political 
environment. Since the high command will also factor in the external 
costs and benefits of retaining power or opting for a democratic 
transition, signals from key international supporters, particularly the 
United States, will influence the course the military takes.
                       us policy: the way forward
    The Musharraf government is sensitive to external costs of its 
domestic actions. The United States has a particularly crucial role in 
ensuring that Pakistan moves towards a peaceful transition to 
democracy. Should Washington signal now that it supports a democratic 
transition, using its considerable leverage, it could nudge the 
military back to the barracks. Musharraf and his military have 
certainly benefited enormously from U.S. diplomatic and financial 
support in return for pledges to crack down on Al-Qaeda and the 
Taliban. But, despite more than $10 billion in assistance, the military 
government has failed to keep its side of the bargain. Al-Qaeda, as the 
latest U.S. National Intelligence Assessment reveals, is operating out 
of Pakistani safe havens. The Taliban operating command and control 
centers in Quetta, Peshawar and FATA, using Pakistani territory for 
refuge, fundraising, recruitment and recuperation, are once more 
resurgent.
    Despite these concerns, Washington still appears unwilling to 
pressure Musharraf beyond a point, and seems to be hedging its bets on 
democracy, not openly criticizing Musharraf on his re-election bid even 
by the sitting Parliament, or his decision to retain the position of 
army chief, partly because of an unfounded fear that more pressure 
could destabilize a valuable ally. There is also concern that elected 
civilian government might not be able to pressure or persuade the 
military to cooperate in countering religious extremism in Pakistan and 
its neighborhood.
    The military high command, however, is far more likely to abandon 
its alliance relationship with the Islamist parties, take action 
against their militant domestic and foreign allies, and allow a 
peaceful and orderly transition, through free and fair elections if the 
United States matches its rhetoric with action, including clearly 
defined benchmarks and conditionalities on continued military 
assistance. Congress could certainly play a constructive role if it 
were to condition diplomatic and military assistance not just on action 
against Al-Qaeda and the Taliban but also on a free, fair and 
democratic election.
    By supporting a democratic transition, the United States would 
directly benefit since elected civilian governments will have the 
legitimacy and popular support to counter domestic extremism and to 
pursue friendly relations with Pakistan's neighbors. By retaining 
security and democracy conditionalities after elections, the United 
States would also send the right signals to the military high command 
to refrain from undermining the transition or hindering an elected 
civilian government's efforts to reform domestic security and foreign 
policy.
    Civilian governments are far more likely to reorient Pakistan's 
internal and foreign policies in a more peaceful direction. Both 
mainstream parties--Bhutto's PPP and Sharif's PML--have stated their 
desire to do so. Moreover, U.S. support for a military government is 
largely responsible for growing anti-U.S. sentiment among pro-democracy 
Pakistanis. By rethinking its policy directions towards Pakistan, the 
United States can forge a far more productive partnership with the 
Pakistani people. The United States should also plan on supporting a 
democratic transition by rethinking the current ratio of military to 
economic assistance, which inordinately favors the military. By putting 
together a package of expanded economic assistance and market access, 
it could help ensure a democracy dividend, win the goodwill of the 
Pakistani people and help stabilize a fragile and valuable ally.
    The United States must stay engaged with Pakistan, but engaged the 
right way. American support for the military government is not in the 
interest of Pakistan or the United States. Supporting a deeply 
unpopular regime is no way to help fight terrorism and neutralize 
religious extremism. Pakistan's two national level parties are 
pragmatic centrist forces whose political interests dictate that 
Islamist extremism is contained within the country and the region. The 
choice before the United States in Pakistan's election year, with time 
fast running out, is stark. It can support a return to genuine 
democracy and civilian rule, which offers the added bonus of containing 
extremism, or the U.S. can sit on the sidelines as Pakistan slides into 
political chaos, creating an environment in which militancy and 
radicalism will continue to thrive.


                               __________


  Responses to Questions for the Record Submitted to Under Secretary 
                    Nicholas Burns by Chairman Biden


    Question. Do you agree with the opinion expressed by Gen. James 
Jones at a Senate Foreign Relations Committee hearing on September 21, 
2006, that in the view of many U.S. military officers the Taliban 
central headquarters is located in or near the Pakistani city of 
Quetta?

    Answer. Since the days of the Soviet-Afghan war, Quetta has been 
home to hundreds of thousands of Afghan nationals. When the U.S. drove 
the Taliban from power in Afghanistan in 2001, many of the Taliban's 
fighters and leaders escaped into loosely governed tribal areas of 
Pakistan as well as parts of the Northwest Frontier Province and 
Baluchistan. The concentration of these fighters and their arms in 
sprawling urban centers like Quetta now poses an extremely difficult 
security problem for Pakistani police and armed forces.
    American officials speak regularly and at high levels with 
Pakistani officials and security forces about our concern that Taliban 
leaders operate out of Quetta and other parts of Pakistan, and 
Pakistani security force actions against suspected Taliban targets both 
in and around Quetta have helped disrupt the Taliban's operations in 
Afghanistan. In March 2007, Pakistani authorities captured Mullah 
Obaidullah, a key Taliban leader with strong ties to Mullah Omar, in 
Quetta. Obaidullah remains in jail. Actions like these have resulted in 
a series of bomb attacks by militants against Pakistani military and 
civilian targets in Quetta and elsewhere in tribal areas of Pakistan. 
We will continue pressing Pakistani authorities to deny the use of 
Pakistani territory by the Taliban.


    Question. Do you believe that the Government of Pakistan has made 
satisfactory efforts to dismantle the terrorist groups Lashkar-e Taiba 
and Jaish-e Muhammad? Are you satisfied with the lack of meaningful 
punishment given to the leaders of these groups: Hafiz Saeed and 
Maulana Azhar?

    Answer. The Pakistani Government has taken steps to decrease 
militancy in Kashmir by Lashkar-e Taiba, Jaish-e Muhammad, and other 
terrorist groups, but problems remain. U.S. officials routinely raise 
our concerns with Pakistani officials about reports that these groups 
continue to operate in Pakistani Kashmir. We will continue to press 
Pakistani officials to take actions that will prevent the use of 
Pakistani territory by terrorist groups. We will also continue to 
support India and Pakistan's Composite Dialogue peace process, which 
includes a mechanism for sharing information related to terrorist 
groups and to attacks in India and Pakistan.
    Indian officials have recently commented that infiltration into 
Indian Kashmir by Pakistan-based militants has decreased since 2005. 
There are disturbing reports, however, that terrorist groups in Kashmir 
are training militants who then move to the Federally Administered 
Tribal Areas to join groups that are attacking U.S., Pakistani, and 
Afghan forces in Afghanistan and Pakistan. India and Pakistan have also 
begun a specific dialogue aimed at cooperating more effectively to 
combat these groups. President Musharraf and Prime Minister Singh 
committed their governments to regularly sharing information about 
terrorist groups through ``Anti-Terror Mechanism'' meetings. Indian and 
Pakistani intelligence and defense officials have met twice for Anti-
Terror meetings this year and have developed closer working 
relationships with one another.
    We will continue to urge the Pakistani Government to take effective 
actions to capture and bring to justice Maulana Masood Azhar, founder 
of Jaish-e Muhammad, and Hafiz Saeed, founder of Jama'at ud-Dawa and 
Lashkar-e Taiba. American officials speak with Pakistani officials 
about our concerns through appropriate channels.


    Question. Do you believe there can be genuinely free and fair 
elections in Pakistan so long as the leaders of the two largest 
political parties remain barred from returning to the country?
    Do you consider Pakistan's 2002 elections to have been free and 
fair? If not, which specific metric referred to in Ambassador 
Patterson's reply was not met in these elections?

    Answer. Political party leaders Nawaz Sharif and Benazir Bhutto 
remain outside of Pakistan due to pending legal and political matters 
with the Pakistani authorities. Ms. Bhutto's party, the Pakistan 
Peoples' Party, has announced her intention to return to Pakistan by 
October 18 to participate in parliamentary elections in January. Her 
participation in the elections, and that of her party, Pakistan's 
largest, would be another step toward ensuring free and fair elections. 
We understand that Mr. Sharif's difficulties are related to an 
agreement between his representatives and representatives from Pakistan 
and Saudi Arabia granting him exile status in Saudi Arabia and relief 
from pending charges in Pakistan. His abortive effort to return to 
Pakistan on September 10 resulted in his deportation to Saudi Arabia.
    As the Department of State's 2006 Human Rights report notes, 
international and domestic observers found the elections of 2002 
flawed, identifying serious problems regarding the independence of the 
Election Commission of Pakistan, restrictions on political parties and 
their candidates, misuse of state resources, unbalanced coverage in the 
state media and deficiencies in compiling the voter rolls and providing 
identification cards. We have been working with the Government of 
Pakistan to provide technical assistance, to encourage a resolution of 
these problems. We continue to urge that the coming elections be free 
and fair. Indeed, during their meeting in Islamabad in March 2006, 
President Bush and President Musharraf agreed that the United States 
would support Pakistan as it builds strong and transparent democratic 
institutions and conducts free and fair elections to ensure sustainable 
democracy. President Musharraf reiterated his commitment to a free and 
fair electoral process to Secretary Rice in June 2006. Events in 
Pakistan over the past year related to the judicial crisis, as well as 
questions regarding whether or not President Musharraf will continue 
occupying the positions of both president and Chief of Army Staff as he 
runs for re-election, have heightened international concerns about the 
upcoming presidential and parliamentary elections. For this reason, we 
are urging the Government of Pakistan to hold elections that will be 
free, fair, and transparent.
    In light of recent government actions detaining opposition party 
members, our Embassy has taken a strong stand, noting our concern 
publicly.


    Question. The testimony presented before our committee on July 25 
outlined a policy that appears to differ very little from that pursued 
by the administration for the past five years. Given the radical 
changes underway in Pakistan--massive pro-democracy street protests, Al 
Qaeda and the Taliban both resurgent, a looming constitutional crisis 
over President Musharraf's post-election role--many believe it is long 
past time for a shift in policy.
          (a.) Is the Administration's policy for the next 18 months a 
        continuation of past practices? If not, which specific changes 
        represent the most significant policy shift?
          (b.) Does the Administration believe that conditions in 
        Pakistan are markedly different than they were in 2002? If so, 
        how has this urgency been translated into policy?

    Answer. Conditions in Pakistan are markedly different than they 
were in 2002. In some ways they are significantly improved; a rapidly 
growing economy (8.5% GDP growth in 2005), and strengthened state 
institutions. In other ways, particularly regarding security in some 
parts of Pakistan, the situation is markedly worse. U.S. policy has 
evolved as the situation on the ground has changed. U.S. policy for the 
next 18 months and beyond will seek to encourage further improvements 
while, at the same time, working with the Government of Pakistan to 
address areas of concern, especially the lack of security in the 
Federally Administered Tribal Areas.
    We have, in public and in private, urged the Government of Pakistan 
to carry out free, fair transparent elections in accordance with the 
Constitution of Pakistan. We have provided technical assistance to 
strengthen the democratic process, and continue to work closely with 
Pakistani officials, as well as NGOs, toward more effective democracy.
    In July, after the findings of the National Intelligence Estimate 
were released publicly, senior Administration officials commented 
publicly--my own testimony included--that Pakistan's past policies for 
the Tribal Areas had not worked in the way intended. The Government of 
Pakistan has now renewed its efforts in the Tribal Areas, and we will 
continue to encourage a more effective policy to weaken al Qaeda and 
the Taliban and build the foundation for greater stability and peace 
there.
    We will work with the Government of Pakistan to expand the benefits 
of growth, to continue support for reform of Pakistan's historically 
weak education system, to build hospitals and train healthcare 
professionals and to strengthen democratic institutions by calling for 
free, fair and transparent elections. We will also work in close 
coordination with the Government of Pakistan to address abysmal social 
conditions and declining security in the Federally Administered Tribal 
Areas. This is a situation that fosters extremism and has been 
exploited by Al Qaeda and the Taliban to fuel their resurgence, a 
threat that has global implications. The United States has committed 
$750 million over five years in support of the Government of Pakistan's 
ten-year, $2 billion program to develop and secure this region.


    Question. More than half a decade after 9/11, Al Qaeda continues to 
enjoy safe haven on Pakistani soil, the Taliban has regenerated and 
operates from Pakistani soil, and the latest National Intelligence 
Estimate deems the threat to the U.S. homeland from Al Qaeda to be 
greater than at any time since 2001.
          (a.) Given that the White House acknowledges that President 
        Musharraf's plan for a separate peace with pro-Taliban forces 
        in the FATA has not worked, is there a new strategy in place to 
        deny Al Qaeda safe haven in Waziristan and other parts of 
        Pakistan? If so, what does this new strategy consist of?
          (b.) What are the metrics for success used by the 
        Administration in evaluating Pakistan's efforts to root out Al 
        Qaeda and the Taliban from Pakistan's territory? By these 
        metrics, has the past five years produced satisfactory success?
          (c.) What specific actions, if any, is the Administration 
        undertaking to produce significant better human intelligence in 
        the FATA, in hopes of targeting Osama bin Laden, Ayman al-
        Zawahiri and other Al Qaeda leaders?

    Answer. The decision by the Government of Pakistan to sign a peace 
agreement with tribal elders in North Waziristan was designed to give 
elders greater responsibility in the tribal agency, based upon the 
assumption that empowering residents would deliver better cooperation 
and avoid pitting the Pakistani military against Pakistani citizens. 
The decision to withdraw Pakistani military forces was, in hindsight, a 
mistake. We objected to this decision at the time. The agreement 
undermined Pakistan's domestic security and diminished the perception 
of Pakistan as a leader in the War on Terrorism despite their efforts 
to date. Tribal councils and tribal elders proved unable or unwilling 
to restrict the movement and activities of terrorist and extremist 
groups. This created a situation in the FATA that posed a danger to 
Pakistan, to Afghanistan, and to U.S. forces in Afghanistan.
     Following events at the ``Red Mosque'' in July, The Pakistani 
Government quickly moved to reassert Government of Pakistan control in 
the tribal areas. The Pakistani Army has reestablished a measure of 
military control but the danger persists. In consultation with the 
United States, President Musharraf has also reached the conclusion that 
a purely military solution to problems in the FATA is impossible. Long-
term control of the FATA will require reestablishing Pakistani 
Government presence and addressing the abysmal social and economic 
conditions that exacerbate alienation in the FATA and in other 
impoverished regions of Pakistan, such as Balochistan and the Northwest 
Frontier Province, as well as establishing a security force capable of 
facing down extremist elements. To this end, the Government of Pakistan 
has initiated a ten-year, $2 billion effort to develop and secure this 
region. The United States has committed $750 million over five years in 
support of the development aspects of this program. Since the beginning 
of July the Government of Pakistan has shifted an additional 20,000 to 
30,000 troops into the border region and is working closely with the 
U.S. to increase the capability of their Frontier Corps and Frontier 
Constabulary.
     Over the past six years no country (other than the U.S.) has done 
more to fight Al Qaeda and the Taliban than Pakistan. Pakistan has 
captured or killed hundreds of Al Qaeda and Taliban terrorists and lost 
over a thousand troops--several hundred in the past months alone--in 
pursuit of terrorists. These metrics offer compelling evidence of 
Pakistan's invaluable efforts in the War on Terror. As important, 
however, the continuation of terrorist incidents and overall insecurity 
underscores that the job is far from done. The diminution of the 
Taliban's ability to conduct cross-border operations in Afghanistan and 
the arrest of Al Qaeda operatives and the disruption of their 
capability to conduct international terrorist operations will be the 
clearest measure of success.
     We would be pleased to provide more information regarding section 
(c) of your question on a classified basis.


    Question. Of the $750 million proposed for the Federally 
Administered Tribal Agencies, how much will be devoted to security and 
how much will be devoted to development?

    Answer. The U.S. Department of State and the U.S. Agency for 
International Development have prepared a five-year, $750 million 
development strategy for the Federally Administered Tribal Areas that 
supports the Government of Pakistan's ten-year, $2 billion Federally 
Administered Tribal Areas Sustainable Development Plan. The $750 
million over five years will be devoted entirely to development.
    The Sustainable Development Plan strengthens and expands ongoing 
U.S. efforts to help Pakistan improve infrastructure, education, 
health, and economic growth in these areas-with the goal of rendering 
the area less hospitable to propaganda and recruiting by al Qaeda, 
Taliban, and terrorist networks. The Plan seeks to:

   Improve economic and social conditions in FATA communities;
   Extend the legitimacy and writ of the Government of Pakistan in 
        FATA;
   Support sustainable permanent change; and
   Change the options available to residents, thus making terrorism 
        undesirable.

    The strategy supports short and medium term service delivery such 
as equipping health clinics with essential drugs and training 
healthcare workers in their appropriate usage. The strategy also 
focuses on developing the Pakistani government's capabilities-at 
various levels of governance-to deliver essential services with speed 
and effectiveness in this remote and unsettled area. Long-term success 
depends upon community participation and building the capacity of 
government agencies to deal effectively with them, and this Plan 
addresses this challenge in a comprehensive way.


    Question. The Administration portrays its proposed Reconstruction 
Opportunity Zones as a notable part of its plan for the FATA. Is the 
ROZ program intended to be a central component of a new policy towards 
Pakistan, or merely a small-scale program limited to the FATA, with 
relatively little impact on the overall US-Pakistan relationship and 
the effort to combat extremism?

    Answer. The Reconstruction Opportunity Zone initiative is a 
critical tool designed to complement existing and planned economic 
development activities by the United States and other donors. Areas 
eligible for such zones would include not only the FATA, but also all 
of Afghanistan and the entire Pakistani border region.
    By extending duty-free treatment to certain goods produced within 
designated territories within these areas, Reconstruction Opportunity 
Zones can help stimulate private sector economic growth and sustainable 
development. The resulting employment and income opportunities would 
provide a vital means to address the poverty and desperation which 
provide fertile ground for terrorism, narcotics trafficking, and other 
illicit activities.
    The Reconstruction Opportunity Zone program is designed to 
complement current, planned, and completed regional aid and development 
programs. For FY 2007 alone, USAID has budgeted $44 million for FATA 
development, and President Bush has pledged to support the Pakistan-led 
FATA Sustainable Development Plan with $750 million over five years. 
The industrial and commercial activity resulting from the ROZ program 
will build upon and sustain these and other U.S.-funded infrastructure 
projects and capacity-building efforts by attracting jobs for newly-
acquired skills, commerce for travel across recently-built roads, and 
sustainable, private sector-led investment and organic income growth to 
bolster the impact of official development assistance. Reconstruction 
Opportunity Zones also will encourage the formalizing of economic 
activity and economic cooperation between Afghanistan and Pakistan 
while helping connect these isolated areas gradually to the regional 
and global economy.
    The Reconstruction Opportunity Zone initiative can also be a focal 
point for supporting initiatives of the governments of Afghanistan and 
Pakistan as well as the international donor community, including 
infrastructure improvements, removal of administrative barriers to 
investment and exports, and other initiatives facilitating cross-border 
economic cooperation. We are actively working to involve the 
international community--including the G8, the European Union, and a 
number of international financial institutions and non-governmental 
organizations--to broaden, coordinate, and multiply the impact of our 
own trade and economic development activities. Taken together, this 
comprehensive approach to sustainable development can give local 
populations a greater stake in the security and stability of the region 
while undermining sympathy and support for violent extremism.
    We hope to earn the support of Congress for this important program.


    Question. On June 13, in an interview on CNN, you said there is 
``irrefutable evidence'' that the Taliban arms were ``coming from the 
government of Iran.'' This statement followed a considerably less 
definitive one from the Secretary of Defense, who stated a belief that 
arms were being transferred with the knowledge of the government, but 
who stated, ``I haven't seen any intelligence specifically to this 
effect.'' On July 17, the U.S. Ambassador to Afghanistan echoed the 
Secretary of Defense's position: ``We believe that the quantity and 
quality of these munitions are such that the Iranian government must 
know about it,'' he told reporters. ``Beyond that we really can't go.''
          a. What specific pieces of "irrefutable evidence" were you 
        referring to on June 13?

    Answer a. My views, and those of our government, are informed by a 
body of information which has been approved for public release by the 
Office of the Director of National Intelligence.
    Since at least 2006, Iran has arranged frequent shipments of small 
arms and associated ammunition, rocket propelled grenades, mortar 
rounds, 107mm rockets, and plastic explosives to the Taliban in 
Afghanistan. Iran's primary instrument for providing arms to the 
Taliban is the Islamic Revolutionary Guards Corps-Qods Force (IRGC-QF), 
an element of the Iranian government responsible for cultivating and 
supporting terrorist and Islamic military groups abroad. Specific 
evidence of IRGC-QF arms shipments to the Taliban includes the 
following:

   In March 2007, a raid on a Taliban compound in Helmand Province, 
        Afghanistan netted an Iranian manufactured .50 caliber anti-
        material sniper rifle, with a probable 205 manufacture date.
   In April and May 2007, convoys were intercepted and seized in 
        southern Afghanistan. These convoys were carrying Iranian 
        weapons, believed to be en route to Taliban forces. The two 
        shipments included: plastic explosives, small arms ammunition, 
        several rocket- propelled (RPG) anti-tank grenades, mortar 
        rounds, artillery rockets, and rocket fuses.
   Analysis of interdicted weaponry, ordnance and explosively-formed 
        projectiles recovered in Afghanistan indicate that the Taliban 
        has had access to Iranian weaponry produced as recently as 2006 
        and 2007.
   On September 6, 2007, Afghan forces interdicted a convoy in Farah 
        Province in western Afghanistan, according to press reports. 
        The press reports noted that the confiscated weapons included 
        explosively formed projectiles (EFPs), which are similar to 
        Iranian-manufactured EFPs provided by the Qods Force to Iraqi 
        militants.

    Our intelligence experts believe Iran is providing arms to the 
Taliban in a bid to raise the cost for the United States and NATO of 
our presence in Afghanistan, to inflict casualties on U.S. and NATO 
forces, and to cause reaction at home in the countries contributing 
those forces.


    Question b.  Do you agree with the analysis of Taliban-Iranian arms 
links presented in the National Intelligence Estimate on Afghanistan of 
April 1, 2007 (NIE 2007-03)?

    Answer b. I am not an intelligence officer, and I think there has 
to be a clear line between those responsible for intelligence 
predictions and those in the policy community. That said, I have full 
confidence in our intelligence community. I think that our analysts are 
objective and have every confidence in their analytical judgments 
regarding this issue.


    Question c. Did you base your ``irrefutable evidence'' statement 
primarily on this NIE? If not, please provide the unclassified titles 
and reference numbers for any classified items of intelligence which 
formed the primary basis for your statement.

    Answer c. My statement was based on information referenced above 
that the Office of the Director of National Intelligence has approved 
for public release.


                                    

      

</pre></body></html>
